No. 19In the

Supreme Court of the United States
RENE BOUCHER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

Matthew J. Baker
Counsel of Record
911 College Street, Suite 200
Bowling Green, KY 42101
(270) 746-2385
mbakerlaw@bellsouth.net
Counsel for Petitioner

292053

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
1. Did the government waive its right to appeal the
defendant’s sentence when it expressly agreed that the
defendant would be free to argue for a below-guideline
sentence at the sentencing hearing, and the trial court
thereafter imposed a perfectly lawful, below-guideline
sentence?
2. Does the government waive its right to appeal when the
defendant expressly waives his right to appeal as part of
his plea agreement?
3. When the defendant serves and completes each
and every aspect of a perfectly lawful sentence, is the
resentencing barred by the Double Jeopardy and/or Due
Process Clauses of the Fifth Amendment?

ii
PARTIES TO PROCEEDINGS
Pursuant to Rule 14.1(b) of the Supreme Court Rules,
the parties to the proceedings below whose judgment is
sought to be reviewed are:
Defendant/Petitioner: Rene Boucher
Plaintiff/Respondent: United States of America

iii
RELATED CASES
--United States of America v. Boucher, No. 1:18-cr00004-1, U.S. District Court for the Western District of
Kentucky. Judgment entered June 21, 2018.
--Boucher v. United States of America, No. 18-5683,
United States Court of Appeals for the Sixth Circuit.
Mandate issued October 1, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO PROCEEDINGS  . . . . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
A. Nature of the Case.  . . . . . . . . . . . . . . . . . . . . . . . . 2
B. Course of Proceedings Below . . . . . . . . . . . . . . . . 3
C. Statement of Facts with Record Citations . . . . . 4
REASONS FOR GRANTING THE PETITION . . . . 10

v
Table of Contents
Page
1.

The government waived its right to appeal
the sentence when it expressly agreed that
the defendant would be free to argue for a
below-guideline sentence and, specifically,
for any sentence within the range permitted
by law. To allow the government to renege
on such an agreement violates all notions of
fundamental fairness and due process  . . . . . . . 10

2.

Certiorari should be granted in order to
resolve the split of authority in the federal
circuits on the issue of the government’s
waiver its r ight to appeal when the
defendant expressly waives his right to
appeal as part of his plea agreement . . . . . . . . . 14

3.

A criminal defendant must be accorded the
protections of the prohibition against double
jeopardy of the Fifth Amendment and/or
the Due Process protections of the Fifth
Amendment when the government obtains
a resentencing of him by appeal after he has
already served out and completed each and
every aspect of the sentence imposed . . . . . . . .  17

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

vi
TABLE OF APPENDICES
Page
A ppendi x A — opinion of the
UNITED STATES COURT OF APPEALS
FOR T H E SI X T H CI RCU I T, FI LED
SEPTEMBER 9, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES COURT OF APPEALS
FOR T H E SI X T H CI RCU I T, FI LED
SEPTEMBER 26, 2018 . . . . . . . . . . . . . . . . . . . . . . . 25a
A PPEN DI X C — T R A NS CR I P T OF
SENTENCING HEARING OF THE UNITED
STATES DISTRICT COURT, WESTERN
DISTRICT OF KENTUCKY, BOWLING
GREEN DIVISION, DATED JUNE 15, 2018  . . . 30a

vii
TABLE OF CITED AUTHORITIES
Page
CASES:
Ashe v. Swenson,
397 U.S. 436 (1970)  . . . . . . . . . . . . . . . . . . . . . . . . 22, 23
Ethridge v. State,
800 So. 2d 1221 (Miss. App. 2001) . . . . . . . . . . . . . . . 19
Ex parte Lange,
85 U.S. 173 (1874) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Green v. United States,
355 U.S. 184 (1957) . . . . . . . . . . . . . . . . . . . . . . . .  17, 21
Heckler v. Comm’y Health Servs.
of Crawford Cty., Inc.,
467 U.S. 51 (1984)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
In re Bradley,
318 U.S. 50 (1943)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Jones v. Thomas,
491 U.S. 376 (1989)  . . . . . . . . . . . . . . . . . . . . .  11, 17, 21
North Carolina v. Pearce,
395 U.S. 711 (1969)  . . . . . . . . . . . . . . . . . . . . . . . . 18, 20
Oksanen v. United States,
362 F.2d 74 (8th Cir. 1966) . . . . . . . . . . . . . . . . . . . . . 18

viii
Cited Authorities
Page
Pennsylvania v. Goldhammer,
474 U.S. 28 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Rock Island C.R.R. v. United States,
254 U.S. 141 (1920)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Snell v. State,
723 So. 2d 105 (Ala. Crim. App. 1998)  . . . . . . . . . . . 19
State ex rel. Hill v. Parsons,
461 S.E.2d 194 (W. Va. 1995) . . . . . . . . . . . . . . . . . . . 19
State v. Ryan,
429 A.2d 332 (N.J. 1981) . . . . . . . . . . . . . . . . . . . . . . . 19
State v. Wheeler,
498 P.2d 205 (Ariz. 1972)  . . . . . . . . . . . . . . . . . . . . . . 19
United States v. Anderson,
921 F.2d 335 (1st Cir. 1990)  . . . . . . . . . . . . . . . . . . . .  17
United States v. Arrellano-Rios,
799 F.2d 520 (9th Cir. 1986) . . . . . . . . . . . . . . . . . 18, 20
United States v. Daddino,
5 F.3d 262 (7th Cir. 1993) . . . . . . . . . . . . . . . . . . . . . . 19
United States v. DiFrancesco,
449 U.S. 117 (1980)  . . . . . . . . . . . . . . . . . . . . . 19, 20, 21

ix
Cited Authorities
Page
United States v. Earley,
816 F.2d 1428 (10th Cir. 1987)  . . . . . . . . . . . . . . . . . . 19
United States v. Fogel,
264 U.S. App. D.C. 292, 829 F.2d 77 (1987) . . . . 19, 21
United States v. Guevara,
941 F.2d 1299 (4th Cir. 1991), cert. den.,
503 U.S. 977 (1992) . . . . . . . . . . . . . . . . . . . . . . . .  14, 17
United States v. Hammond,
742 F.3d 880 (9th Cir. 2014) . . . . . . . . . . . . . . . . . . . .  17
United States v. Kinsey,
994 F.2d 699 (9th Cir. 1993) . . . . . . . . . . . . . . . . . . . . 18
United States v. Little,
U. S. Court of Appeals for the Fourth Circuit,
Case No. 99-4661, Decided July 20, 2001
(Unpublished) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15
United States v. Lundien,
769 F.2d 981 (4th Cir. 1985) . . . . . . . . . . . . . . . . . 19, 20
United States v. Rosario,
386 F.3d 166 (2d Cir. 2004) . . . . . . . . . . . . . . . . . . . . . 19
United States v. Silvers,
90 F.3d 95 (4th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 18

x
Cited Authorities
Page
United States v. Woodward,
726 F.2d 1320 (9th Cir. 1983) . . . . . . . . . . . . . . . . . . . 21
Statutes:
18 U.S.C. § 351  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 13
18 U.S.C. § 351(e)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 7
18 U.S.C. § 1001  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
18 U.S.C. § 1341  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
18 U.S.C. § 1956  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
18 U.S.C. § 2113(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
18 U.S.C. § 2113(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
18 U.S.C. § 3742  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2255 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
United States Constitution:
U.S. Const., amend. V  . . . . . . . . . . . . . . . . . . . . . . . passim

xi
Cited Authorities
Page
Other citations:
Fulgham, Robert, All I Really Need to Know I
Learned in Kindergarten (1986)  . . . . . . . . . . . . . . . 11

1
OPINIONS BELOW
The transcript from the defendant’s final sentencing
hearing of June 15, 2018 is reproduced as Appendix C
(pp. 30a-90a). The Sixth Circuit’s Order in United States
v. Boucher, 905 F.3d 479 (6th Cir. 2018) denying Boucher’s
motion to dismiss the appeal is reproduced as Appendix
B (pp. 25a-29a). The Sixth Circuit’s Opinion in United
States v. Boucher, 937 F.3d 702 (6th Cir. 2019) reversing and
remanding for resentencing is reproduced as Appendix
A (pp. 1a-24a).
STATEMENT OF JURISDICTION
The Petitioner invokes the jurisdiction of this Court
under 28 U.S.C. § 1254(1). The Petitioner pled guilty to
a one-count information in the United States District
Court for the Western District Court of Kentucky for
a violation of 18 U.S.C. § 351 for assaulting a member
of Congress, United States Senator Rand Paul. The
Petitioner was sentenced on June 15, 2018 pursuant to
a negotiated plea agreement. The trial court imposed
a sentence of 30 days confinement, a fine of $10,000,
and 100 hours of community service. The government
appealed the sentence. The Petitioner completely served
his sentence. The Petitioner unsuccessfully moved to
dismiss the appeal. The United States Court of Appeals
reversed and remanded the matter for resentencing by
its Opinion rendered September 9, 2019. The mandate
issued October 1, 2019.

2
CONSTITUTIONAL PROVISIONS INVOLVED
The Constitutional provision implicated within these
proceedings is the prohibition against double jeopardy
as set forth in the Fifth Amendment to the United States
Constitution, as well as the due process protections of the
Fifth Amendment to the United States Constitution.
Fifth Amendment to the United States Constitution
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.
STATEMENT OF THE CASE
A. Nature of the Case.
United States Senator Rand Paul and Rene Boucher
(hereinafter “Petitioner”) were next-door neighbors in
Bowling Green, Kentucky. Problems between them began
in the summer of 2017, when the Petitioner trimmed the
branches of five maple trees in Paul’s backyard that had
grown over the property line. In order to retaliate, or
otherwise teach the Petitioner a lesson, Paul constructed
a large pile of limbs and brush at the edge of his property

3
in the direct sightline of the Petitioner’s home. To appease
the situation and make amends, the Petitioner crossed
onto Paul’s property, removed the limbs and brush, and
hauled them off in dumpsters.
The following month, the Petitioner noticed another
larger pile of limbs and brush in roughly the same location.
He hauled it off again. A few days later, another bundle
reappeared. This time, the Petitioner did not haul it
away; rather, he poured gasoline over the debris and lit
a match. The ensuing fireball caught him by surprise.
The debris was burned, but so was the Petitioner —he
suffered second-degree burns on his arms, neck, and face.
When Paul got on his lawnmower the next day,
the Petitioner was watching him from the top of a hill
overlooking Paul’s property. According to the Petitioner,
he saw Paul “blow all of the leaves from his property
onto Boucher’s yard.” Paul then got off his lawnmower,
picked up a few more limbs, and turned toward the site
of the burned debris pile. The Petitioner ran across the
lawn and tackled Paul. After a brief fracas, Paul and the
Petitioner exchanged words, and Paul left the scene and
called the police.
B. Course of Proceedings Below
The Warren County Attorney initially charged the
Petitioner with Fourth Degree Misdemeanor Assault
under Kentucky law. He was taken briefly into custody and
posted a cash bond to secure his release. The government
then charged the Petitioner by an information on one count
of assaulting a member of Congress in violation of 18
U.S.C. § 351(e), and the state charges were dropped. The

4
Petitioner pleaded guilty. His presentence report (PSR)
recommended a Guideline sentencing range of 21 to 27
months in prison. Throughout, the government expressly
committed that: “…”[t]he government would recommend
a sentence no higher than the low-end of a guideline
range and you would be free to recommend any sentence
authorized by the statute (0-10).” (Emphasis added). To
this day, the government has never denied the existence
of this agreement.
At final sentencing, the trial court imposed a sentence
of 30 days confinement, a fine of $10,000, and 100 hours of
community service. (Appendix C, pp. 85a-87a). Moments
before the trial court adjourned, the government
objected to the sentence imposed. (Appendix C, p.
88a). The Petitioner immediately paid his fine and was
taken into custody a few weeks after final sentencing.
He has served the entirety of his sentence, completed
his community service and is no longer on probation.
Meanwhile, the government appealed the sentence. The
Petitioner unsuccessfully moved to dismiss the appeal
on the grounds that the government waived its appellate
rights. (Appendix B). The United States Court of Appeals
for the Sixth Circuit reversed and remanded the matter
for resentencing by its Opinion rendered September 9,
2019. (Appendix A). The mandate issued October 1, 2019.
C. Statement of Facts with Record Citations
The Petitioner is a retired medical doctor and resides
at 582 Rivergreen Way, Bowling Green, Warren County,
Kentucky. Rand Paul, at all times relevant, has been a
United States Senator and has resided at 200 Lakeside
Way, Bowling Green, Warren County, Kentucky. Both of

5
these properties are in the Rivergreen subdivision, which
is a gated community in Bowling Green, Warren County,
Kentucky. The Petitioner and Senator Paul share a
common boundary line, and their properties are otherwise
contiguous to each other.
During the summer of 2017, the Petitioner trimmed
the limbs on approximately five maple trees that are on this
common property line. The branches of these trees were
low to the ground and extending a substantial distance
across the Petitioner’s property. (Boucher Sentencing
Memorandum, Docket Entry #26, p. 6).
In approximately September 2017, Senator Paul
placed a substantial amount of limbs, and the remnants
from having his shrubs trimmed, just off the property line,
but admittedly on Paul’s property. This pile of yard trash
and debris was approximately ten feet long, and five feet
high. (Boucher Sentencing Memorandum, Docket Entry
#26, p. 6). On or about October 10, 2017, the Petitioner
gathered up the pile of yard debris on the Paul property,
placed it into portable dumpsters, and had it hauled off.
Even though this was not the Petitioner’s trash, or on
the Petitioner ‘s property, he viewed it as unsightly -- as
Senator Paul had placed it directly in the Petitioner’s line
of sight from his patio and the back door of his house.
(Boucher Sentencing Memorandum, Docket Entry #26,
p. 6).
On either October 13 or 14, 2017, Senator Paul
reconstructed the pile of yard debris at approximately
the same location where it was previously located -- just
off the property line between the two gentlemen involved.
(Boucher Sentencing Memorandum, Docket Entry #26,

6
p. 6). On October 17, 2017, the Petitioner again hauled off
the yard debris -- even though it was not his, and even
though it was not on his property. (Boucher Sentencing
Memorandum, Docket Entry #26, p. 6). On October 20 or
21, 2017, the pile of yard debris was again reconstructed
in the same location. (Boucher Sentencing Memorandum,
Docket Entry #26, p. 7).
The Petitioner had discussed this situation with at
least two members of the Rivergreen Home Owners
Association throughout this relevant time frame.
Specifically, he conversed with Rina Malmquist and
Minerva Westray, both of whom were then-members of
the Rivergreen HOA. (Boucher Sentencing Memorandum,
Docket Entry #26, p. 7).
On or about November 2, 2017, the Petitioner burned
the third pile of yard debris that had been constructed
just off the property line. Unfortunately for the Petitioner,
he used gasoline to ignite this fire. The fireball from the
gasoline caused him to sustain second-degree burns on
both of his arms, and the left side of his neck and face.
(Boucher Sentencing Memorandum, Docket Entry #26,
p. 7).
On November 3, 2017, Senator Paul returned from
Washington and used his lawnmower to blow all of the
leaves from his property onto the Petitioner’s yard. During
this process, Paul stepped away from his lawnmower,
gathered several branches from adjacent pile of trash,
and placed them in the exact location where the last pile
had been burned just one day prior. The Petitioner lost his
temper and tackled Paul as Paul was carrying branches
from another location on his property and placing them
on the property line. Immediately after the incident,

7
Paul referred to the Petitioner as “crazy.” The Petitioner
told Paul that he wanted this to stop. Paul replied that
the police would be visiting the Petitioner. (Boucher
Sentencing Memorandum, Docket Entry #26, p. 7).
In fact, on November 3, 2017, the police did visit
the Petitioner. The investigating officer took a recorded
statement from him. He was then taken into custody,
charged with 4 th degree assault, and lodged in the
Warren County Jail. He posted bond the next day and
subsequently was arraigned on the state court charge.
(Boucher Sentencing Memorandum, Docket Entry #26,
p. 8). A copy of the file from the Warren District Court
in Commonwealth v. Rene Boucher confirms that the
Petitioner was charged with Assault, 4th degree, which is
a Class A misdemeanor under Kentucky Revised Statute
508.030.
While the state court misdemeanor charge was
pending, Hon. Bradley P. Shepherd, Assistant United
States Attorney, Southern District of Indiana, contacted
defense counsel on December 5, 2017. To paraphrase
and summarize, Mr. Shepherd indicated that he had
been appointed as a special prosecutor to handle the
federal prosecution of the Petitioner, and that it was
the government’s intention to go forward on an alleged
violation of Title 18 U.S.C. 351(e), assault on a Member of
Congress. In his written message to defense counsel, Mr.
Shepherd proposed to proceed by an information, and he
discussed a guideline sentence range. He expressly and
unequivocally stated: “[t]he government would recommend
a sentence no higher than the low-end of a guideline
range and you would be free to recommend any sentence
authorized by the statute (0-10).” (Emphasis added).

8
Based upon the government’s representations, the
Petitioner agreed to proceed by an information, and his
signed plea agreement was put to record in the trial
court from which the government later appealed. (See
Plea Agreement, Docket Entry #5). At page 7 of this
plea agreement, the Petitioner acknowledged that he is
“. . . aware of his right to appeal his conviction and that 18
U.S.C. § 3742 affords a defendant the right to appeal the
sentence imposed. Unless based on claims of ineffective
assistance of counsel or prosecutorial misconduct,
Defendant knowingly and voluntarily waives the right (a)
to directly appeal his conviction and the resulting sentence
pursuant to Fed. R. App. P. 4(b) and 18 U.S.C. § 3742, and
(b) to contest or collaterally attack his conviction and the
resulting sentence under 28 U.S.C. § 2255 or otherwise.”
Subsequently, Shannon D. Teague, U. S. Probation
Officer, filed her Presentence Investigation Report within
the trial court proceedings on June 5, 2018. (Docket Entry
#24). Neither the government nor the Petitioner made any
objections to any item within this report. The Presentence
Investigation Report, referenced immediately above,
expressly states in Part A, Paragraph 2 (p. 3 of the report),
that:
On March 9, 2018, the defendant pled guilty
to one count(s) of a one-count Information.
Pursuant to Rule 11(c)(1)(B), the government
ag rees to recommend, or ag rees not to
oppose the defendant ’s request , that a
particular sentence or sentencing range is
appropriate or that a particular provision of the
Sentencing Guidelines, or policy statement, or
sentencing factor does or does not apply. Such

9
a recommendation or request does not bind the
Court.
Final sentencing was conducted in open court on
June 15, 2018. (Appendix C). During the course of this
proceeding, the Petitioner separately executed a written
waiver of his right to appeal the sentence imposed by
the Court. (Docket Entry #33). The Petitioner argued
for a sentence within the range permitted by law. The
government—being true to its word and in keeping with
the express agreement of the parties—did not object.
At final sentencing, the Petitioner was sentenced to
thirty days incarceration, a $10,000.00 fine, and 100 hours
of community service. (Docket Entry #37; Appendix C,
pp. 85a-87a). This sentence is clearly “within the range
permitted by law”. The Petitioner immediately paid his
$10,000.00 fine, in full, to the Clerk of the United States
District Court, Western District of Kentucky, on June 16,
2018, just one day after sentence was pronounced.
The United States of America filed its Notice of
Appeal on June 29, 2018. (Docket Entry #41).
The Petitioner voluntarily surrendered himself to
federal custody on or about July 22, 2018, and he completed
the service of his sentence, in full, on August 20, 2018.
His fine is paid in full; he has completed all 100 hours of
community service; and he is no longer on probation.
The Petitioner, through counsel, moved to dismiss
the government’s appeal, arguing that the government
had waived its appellate rights. The United States Court
of Appeals for the Sixth Circuit denied the Petitioner’s

10
motion to dismiss the government’s appeal by an order
entered September 26, 2018. United States v. Boucher, 905
F.3d 479 (6th Cir. 2018) (Appendix B). The United States
Court of Appeals subsequently reversed and remanded
the matter for resentencing by its Opinion rendered
September 9, 2019. United States v. Boucher, 937 F.3d 702
(6th Cir. 2019) (Appendix A). The mandate issued October
1, 2019.
REASONS FOR GRANTING THE PETITION
1. The government waived its right to appeal the
sentence when it expressly agreed that the
defendant would be free to argue for a belowguideline sentence and, specifically, for any
sentence within the range permitted by law.
To allow the government to renege on such an
agreement violates all notions of fundamental
fairness and due process.
Justice Oliver Wendell Holmes once famously stated:
“Men must turn square corners when they deal with
the government.” Rock Island C.R.R. v. United States,
254 U.S. 141, 143 (1920). And, in turn, it has often been
held that the converse is equally as true—that is, the
government must “turn square corners” in its conduct,
transactions and general dealings. “…[T]he government
must ‘turn square corners’ in its own conduct.” Heckler
v. Comm’y Health Servs. of Crawford Cty., Inc., 467 U.S.
51, 61 n.13, 104 S.Ct. 2218, 81 L.Ed.2d 42 (1984). The
doctrine applies and extends even in the context of a
criminal prosecution of a defendant. Justice Scalia once
dissented in such a matter, noting: “The Double Jeopardy
Clause is and has always been, not a provision designed
to assure reason and justice in the particular case, but

11
the embodiment of technical, prophylactic rules that
require the Government to turn square corners.” Jones
v. Thomas, 491 U.S. 376, 387, 109 S. Ct. 2522, 2529, 105 L.
Ed. 2d 322 (1989). (Emphasis added).
The doctrine says, in essence, that in dealing with
the public, government agencies must “turn square
corners”—that is, essentially, to comport itself with
compunction and integrity, and not conduct itself so as to
achieve or preserve any kind of bargaining or litigational
advantage over a member of the public. In short, when
the government, acting through the offices of the United
States Attorney, makes a promise—and especially a
written promise—in a criminal prosecution, then the law
should require that the promise be kept and enforced. This
is not rocket science. It is fundamental due process—which
is implicated in all cases where there is action that is
inconsistent with fundamental notions of fairness. These
are the lessons that most people are taught at a very
early age. Robert Fulghum summed it up in two words:
“Play fair.” Fulgham, Robert, All I Really Need to Know
I Learned in Kindergarten (1986).
It is axiomatic that the Office of the United States
Attorney is “the government”, and that this office has
the authority to speak on behalf of the government. In
the matter now pending, it must be expressly noted and
reiterated that, from the outset, the government—by and
through the United States Attorney—took the position
that: “The government would recommend a sentence
no higher than the low-end of a guideline range and
you [defense counsel] would be free to recommend any
sentence authorized by the statute (0-10).” (Emphasis
supplied). “Fair play”—or “turning square corners”—
would absolutely require the government to be bound by

12
this statement, and it is an absurdity to take the position
that the defendant is free to argue for a below-guideline
sentence, and then appeal the sentence because it is below
the guideline range.
To be right to the point, by expressly agreeing that the
defendant would be uninhibited from, and completely free
to argue for a below-guideline sentence, the government
waived its right to appeal. It unequivocally agreed that
Boucher would be “…free to recommend any sentence
authorized by the statute (0-10).” (Emphasis added).
The government cannot, does not, and has never denied
that it made this agreement. And, after a perfectly legal
below-guideline sentence was announced and imposed, the
government reneged on its deal by appealing the sentence.
Certiorari is warranted in order to address the
issue of whether the government should be permitted to
negotiate an agreement whereby the defendant is “…free
to recommend any sentence authorized by the statute…”,
and then appeal the result when the trial court imposes a
sentence that is not to the government’s liking. In the same
vein, the government cannot, and should not, be permitted
to appeal a sentence when it expressly agrees “. . . not to
oppose the defendant’s request that a particular sentence
or sentencing range is appropriate. . .”
The government waived its right to appeal when it
cast its lot with the trial court, plain and simple, and it
agreed to be bound by whatever decision that the trial
court determined to be fair. For the Sixth Circuit Court
of Appeals to say that only the Solicitor General controls
the appellate process is a fig leaf, at best.

13
There is no denying that this matter involves an
assault on a sitting United States Senator, who was once a
candidate for the office of President of the United States.
Everyone would agree that this is a serious issue, and a
proper review and outcome is important for a multitude
of reasons. It has been the subject of national, if not
worldwide, media attention and scrutiny. It is also true
that—fortunately—there have been very few criminal
prosecutions under 18 U.S.C.§ 351, which is another
reason why the granting of certiorari is warranted. Both
the intense public scrutiny associated with this case, and
so few other cases to use as a benchmark for sentencing
under 18 U.S.C.§ 351, dictate that a level playing field
should be afforded to both sides, and not lean in the favor
of a United States Senator, the United States government,
and all its infinite resources. A “Mulligan”1 is sometimes
allowed in a game of golf, but it should never, never, ever
be permitted when a person’s liberty is at stake—even
when the victim is a United States Senator. This is about
“a deal is a deal”. It’s about fair play. And it’s about square
corners.
When the government says to the defendant: “These
are the rules…”, the government should not be permitted
to change the rules after the game is over in order to get
a second chance at the result it desires.

1. A free shot sometimes given a golfer in informal play when
the previous shot was poorly played.

14
2. Certiorari should be granted in order to resolve the
split of authority in the federal circuits on the issue
of the government’s waiver its right to appeal when
the defendant expressly waives his right to appeal
as part of his plea agreement.
A clear split of authority presently exists within the
federal courts of appeal on the issue of the government’s
implicit waiver of its appeal right when the defendant has
waived his right of appeal. If the very same charge, guilty
plea, sentencing, and resulting government appeal had
been brought and decided in the United States Court of
Appeals for the Fourth Circuit, the government’s appeal
most certainly would have been dismissed.
This Court should accept review in order to resolve
the split of authority within the circuits.
Specifically, a near-identical fact pattern was
presented in United States v. Guevara, 941 F.2d 1299
(4th Cir. 1991), cert. den., 503 U.S. 977 (1992). In Guevara,
the defendant entered into a plea agreement with the
government in which she agreed to plead guilty to
defrauding the Immigration and Naturalization Service
under 18 U.S.C. § 1001, to committing mail fraud under 18
U.S.C. § 1341, and to the laundering of money instruments
under 18 U.S.C. § 1956. She was sentenced to 28 months
in prison, to be followed by three years of supervised
release. The government appealed.
Within her plea agreement, Guevara waived her right
to appeal. Her waiver is nearly identical to the waiver that
the Petitioner executed in the matter now pending.

15
The 4th Circuit expressly held that the government
had also waived its right to appeal, stating: “. . . [W]e are
of opinion that such a provision against appeals must also
be enforced against the government, which must be held
to have implicitly cast its lot with the district court, as the
defendant explicitly did.” The 4th Circuit dismissed the
government’s appeal accordingly.
Subsequently, in a completely separate and unrelated
proceeding, it was expressly held by the United States
Court of Appeals for the Fourth Circuit in United States
v. Little, (U. S. Court of Appeals for the Fourth Circuit,
Case No. 99-4661, Decided July 20, 2001 (Unpublished)),
that when the government takes an unauthorized appeal
from a sentence (just like it has done in this case), and
the defendant’s attorney does not file a motion to dismiss,
the lawyer’s failure to do so is tantamount to ineffective
assistance of counsel, thereby violating the defendant’s
Sixth Amendment right to counsel.
The facts of the Little case are straightforward.
Bruce Little was indicted on two counts of bank robbery
and bank larceny under 18 U.S.C § 2113 (a) and (b). He
entered into a plea agreement in which he waived his right
to appeal his sentence or other post-conviction action. His
sentence was not harsh enough to suit the government,
and, ultimately, the government appealed Little’s sentence.
Little’s attorney did not file a motion to dismiss the appeal,
and Little received a stiffer sentence on resentencing.
Thereafter, Little retained a new attorney, who argued
that the prior attorney provided ineffective assistance by
failing to point out that the government was barred from
appealing his sentence, and the 4th Circuit held: “The
lawyer completely omitted (or missed) his best argument,

16
that the government had implicitly waived its right to an
appeal.” The court concluded that the failure of counsel
to file a motion to dismiss such an appeal constituted
ineffective assistance of counsel.
As it presently stands, a defendant seeking a dismissal
of a governmental appeal of sentencing in the First, Sixth,
and Ninth Circuit is not permitted, but a defense attorney
who does not pursue a dismissal of a governmental
appeal of a sentence in the Fourth Circuit is committing
ineffective assistance of counsel.
In the matter sub judice, the government agreed to
the entry of a guilty plea and stated that it would argue
for a guideline-range penalty; in turn, the Petitioner
agreed to plead guilty and stated he would be arguing for
leniency and mercy. Both parties agreed that they would
let the adversarial process play out and, in the end, que
sera sera (“what will be will be”). Now, the government
has successfully convinced the Sixth Circuit Court of
Appeals that “what will be will be…unless we don’t get
the result that we want”.
This, of course, is a classic example of saying that
“a deal is a deal”… and then reneging on the deal. The
undeniable agreement was that both sides would present
their respective arguments to the trial court and leave
it up to the trial court judge to impose an appropriate
sentence. That is exactly what happened. The trial court
did its job. Now, the government has obtained a “do
over”—despite the express agreement by the government
that there would be no “do overs.”

17
The Sixth Circuit has now sided with the First Circuit
and the Ninth Circuit on this issue (United States v.
Anderson, 921 F.2d 335, 337–38 (1st Cir. 1990); United
States v. Hammond, 742 F.3d 880, 883 (9th Cir. 2014)),
but the precedent of the Guevara in the Fourth Circuit
remains, and its reasoning warrants review on this issue.
3. A criminal defendant must be accorded the
protections of the prohibition against double
jeopardy of the Fifth Amendment and/or the Due
Process protections of the Fifth Amendment
when the government obtains a resentencing of
him by appeal after he has already served out and
completed each and every aspect of the sentence
imposed.
This Court should grant certiorari to announce a
holding that there is clearly (a) a double jeopardy bar,
and (b) due process bar to the imposition of additional
punishment through an order for resentencing by an
appellate court, after the defendant has completed service
of the original sentence imposed by the trial court.
“The Double Jeopardy Clause is and has always been,
not a provision designed to assure reason and justice
in the particular case, but the embodiment of technical,
prophylactic rules that require the Government to turn
square corners.” Jones v. Thomas, 491 U.S. 376, 387, 109
S. Ct. 2522, 2529, 105 L. Ed. 2d 322 (1989).
The Double Jeopardy Clause has two principal
purposes: to “protect an individual from being subjected
to the hazards of trial and possible conviction more than
once for an alleged offense,” Green v. United States, 355
U. S. 184, 355 U. S. 187 (1957), and to prevent imposition

18
of multiple punishments for the same offense, North
Carolina v. Pearce, 395 U. S. 711, 395 U. S. 717 (1969).
An overriding function of the Double Jeopardy Clause’s
prohibition against multiple trials is to protect against
multiple punishments: “[i]t is the punishment that would
legally follow the second conviction which is the real
danger guarded against by the Constitution.” Ex parte
Lange, 85 U. S. 173 (1874).
In Ex Parte Lange, 85 U.S. 163 (1874), the trial court
sentenced the defendant to imprisonment and a fine, even
though the statute permitted only imprisonment or a
fine. The defendant paid the fine, which was committed
to the treasury and could not be returned. See id. at
174-75. This Court held that the Double Jeopardy Clause
barred subsequent correction of the sentence to include
imprisonment. Once the defendant “had fully suffered
one of the alternative punishments to which alone the law
subjected him, the power of the court to punish further
was gone.” Id. at 176; see also In re Bradley, 318 U.S.
50, 51-52 (1943) (sentence could not be corrected after
defendant fully paid fine, which by itself constituted a
lawful punishment for the offense).
This case squarely presents the question of whether
the Double Jeopardy Clause sets a temporal limit on the
amendment of a lawful sentence. Several federal circuit
courts have indicated that an expectation of finality arises
after complete service of a lawful sentence. See, e.g.,
United States v. Silvers, 90 F.3d 95, 101 (4th Cir. 1996);
United States v. Kinsey, 994 F.2d 699, 702-03 (9 th Cir.
1993); United States v. Arrellano- Rios, 799 F.2d 520, 52324 (9th Cir. 1986); cf. Oksanen v. United States, 362 F.2d
74, 80 (8thCir. 1966). Several other courts have gone even

19
further and deemed lawful sentences final at some earlier
point in time. See Snell v. State, 723 So.2d 105, 108 (Ala.
Crim. App. 1998) (lawful sentence final after imposition);
State v. Wheeler, 498 P.2d 205, 208 (Ariz. 1972) (same);
United States v. Rosario, 386 F.3d 166, 169-71 (2d Cir.
2004) (lawful sentence final after commencement); United
States v. Earley, 816 F.2d 1428, 1434 (10th Cir. 1987) (same);
Ethridge v. State, 800 So.2d 1221, 1225 (Miss. App. 2001)
(same); State v. Ryan, 429 A.2d 332, 337-38 (N.J. 1981)
(same); United States v. Daddino, 5 F.3d 262, 265 (7th Cir.
1993) (lawful sentence final after release from custody);
State ex rel. Hill v. Parsons, 461 S.E.2d 194, 198 (W. Va.
1995) (same).
It is clear from the cases of United States v.
DiFrancesco, 449 U.S. 117 (1980) and Pennsylvania v.
Goldhammer, 474 U.S. 28 (1985) that when a sentence
is increased in a second proceeding “the application of
the double jeopardy clause . . . . turns on the extent and
legitimacy of a defendant’s expectation of finality in that
sentence. If a defendant has a legitimate expectation of
finality, then an increase in that sentence is prohibited
. . . . .” United States v. Fogel, 264 U.S. App. D.C. 292, 302,
829 F.2d 77, 87 (1987) (Bork, J.).
“There must be some limitation on the power of
the trial court to enhance punishment by resentencing
after the defendant’s commencement of service.” United
States v. Lundien, 769 F.2d 981, 986 (4th Cir. 1985). Here,
not only has the Petitioner commenced the service of his
sentence, but he has completed and fulfilled every aspect
of it. Respectfully, this case presents the opportunity to
declare that a person who has completed every aspect of a
perfectly lawful sentence is protected by both the Double

20
Jeopardy Clause and the Due Process Clause of the Fifth
Amendment. Otherwise, the power of the government to
send the Petitioner back to prison keeps the proverbial
Sword of Damocles hanging over the Petitioner’s head
in perpetuity, and there will never be any finality in any
given case. The Petitioner submits that if, according to
case law, an expectation of finality arises near the end
of a term of confinement, it must surely crystallize when
the defendant has completed every aspect of his sentence.
The Fourth Circuit has opined that the Double
Jeopardy Clause applies to sentencing determinations
in cases where the defendant has fully suffered a lawful
punishment for his crime. See United States v. Lundien,
769 F.2d 981, 984-86 (4th Cir. 1985). Likewise, The case of
United States v. Arrellano-Rios, 799 F.2d 520, 523 (9th
Cir. 1986) specifically holds:
The Double Jeopardy Clause protects against
multiple punishments for the same offense.
DiFrancesco, 449 U.S. at 129, 101 S.Ct. at 433
(quoting North Carolina v. Pearce, 395 U.S.
711, 717, 89 S.Ct. 2072, 2076, 23 L.Ed.2d 656
(1969)). We need not decide at what point, in
the service of a defendant’s legal sentence, a
reasonable expectation of finality arises. We
are certain, however, that the expectation
has arisen, and jeopardy has attached, upon
its completion. See Lundien, 769 F.2d at 985
(implying that jeopardy attaches when sentence
“fully served”). This conclusion is supported
by the fact that we find no cases holding that
finality is not accorded to a fully served legal
sentence. Accordingly, we reaffirm the rule
that increasing a legal sentence after it has

21
been fully served violates the Double Jeopardy
Clause. Cf. United States v. Woodward, 726 F.2d
1320, 1328 (9th Cir.1983) (post-DiFrancesco
case reaffirming Edick without discussing
DiFrancesco), rev’d on other grounds, 469
U.S. 105, 105 S.Ct. 611, 83 L.Ed.2d 518 (1985).
(Emphasis added).
Justice Scalia foresaw and described such a scenario
when he opined: “[i]f, for example, a judge imposed only a
15-year sentence under a statute that permitted 15 years
to life, he could - as far as the Court’s understanding of
the Double Jeopardy Clause is concerned - have second
thoughts after the defendant has served that time, and
add on another 10 years. I am sure that cannot be done,
because the Double Jeopardy Clause is a statute of repose
for sentences as well as for proceedings. Done is done.”
Jones v. Thomas, 491 U.S. 376 (1989) (Justice Scalia,
dissenting). (Emphasis added).
Here, the Petitioner has served every bit of a perfectly
legal sentence. He now faces the horrifying prospect of
having to go back to prison to serve an additional sentence
for the very same offense to which he pled guilty and
accepted his punishment. This is simply intolerable by
anyone’s standards of the application of double jeopardy
and fundamental principles of due process. “One of the
interests protected by constitutional finality is that of
the defendant to be free from being compelled to `live
in a continuing state of anxiety and insecurity.’” United
States v. Fogel, 264 U.S.App. D.C. 292, 303, 829 F.2d 77,
88 (1987) (quoting Green v. United States, 355 U.S. 184,
187, 78 S. Ct. 221, 223, 2 L. Ed. 2d 199 (1957)).

22
Looking prospectively, it would be entirely possible
that, if the Petitioner is subject to a resentencing by the
trial court, and his new sentence entails a harsher penalty
than he initially received—but still not harsh enough to
suit the government—he could be put through the same
rigamarole all over again. He could go back to prison
on the new sentence, the government could attempt to
obtain a resentencing through appellate review, and the
Petitioner would find himself—once again—right back
where he started.
This is the very reason that this Court should grant
certiorari in order to declare that the double jeopardy
and due process clauses of the Fifth Amendment impose
a temporal limitation and bar on resentencing when a
defendant has completely served out every aspect of a
perfectly legal sentence.
This Court also recognized that the doctrine of
collateral estoppel applies in criminal proceedings in
Ashe v. Swenson, 397 U.S. 436 (1970), and explained
this doctrine in the context of double jeopardy. “The
question is no longer whether collateral estoppel is a
requirement of due process, but whether it is a part of the
Fifth Amendment’s guarantee against double jeopardy.”
The court went on to hold that, if collateral estoppel is
embodied in that guarantee, then its applicability in a
particular case is a constitutional issue, to be determined
by an examination of the record.
An examination of the record in this case undeniably
reveals that the Petitioner has served every aspect of a
legal sentence. “The rule of collateral estoppel in criminal
cases is not to be applied with the hypertechnical and

23
archaic approach of a 19th century pleading book, but
with realism and rationality.” Ashe, supra. “Realism”
and “rationality” would indicate that in the realm of
fundamental fairness, a defendant who has completely
served his sentence clearly has an expectation of finality
in the prosecution of the case against him. To believe
anything to the contrary is nothing short of ludicrous, as
nothing would ever really be over in such a case.
Certiorari is warranted to address the issue of
whether there is a temporal limitation on a court’s ability
to resentence a defendant—and, especially, a defendant
who has served out every aspect of his sentence. It is
respectfully submitted that an expectation of finality
occurs when the defendant completes his sentence and has
been released from custody; otherwise, as Justice Scalia
observes, nothing is ever really “done”.
To the Petitioner—as it is with many, many criminal
defendants, the issue is not whether there will be a finding
of guilt—even if it is to an amended or lesser charge in the
end; rather, most defendants are more concerned with how
much time they must spend in prison than with whether
their record shows a conviction. This is not to say that the
ordeal of a trial is not important, but the conviction is the
predicate for the punishment—and oftentimes, prison
time. In reality, an overwhelming number of criminal
defendants are willing to enter plea bargains in order to
keep their time in prison as brief as possible—and this
case is no exception.
This Court certainly knows that the sentencing phase
of a criminal proceeding is neither incidental, nor an
afterthought. To the convicted defendant, the sentencing

24
phase is certainly as critical, or even more critical, than
the guilt-innocence phase. Once a defendant has served
out his sentence, he should not be re-exposed to a second
proceeding wherein he faces the prospects of having to
go back to prison to serve additional time for the same
crime previously committed and resolved.
CONCLUSION
This case is both a garden-variety matter in that it
involves the same type of scuffle and fracas that occurs on
a daily basis around the country, and, at the same time, is
unique in that this particular scuffle involves an assault
on a sitting United States Senator. Again, the reason for
the assault was clearly not politically motivated. It was a
dispute between two neighbors over yard maintenance.
But for the status of the victim, the matter would have been
resolved as a misdemeanor assault charge in Kentucky
state court, and there would never, ever have been any
appellate review. The Petitioner agreed to plead guilty,
and the government expressly agreed that the Petitioner
would be free to argue for any sentence within the range
permitted by law. The Petitioner received a sentence
within the range permitted by law, and he then served
out his sentence completely and in all respects.
Because the sentence was not harsh enough to suit the
government, it reneged on its agreement and appealed.
The Sixth Circuit accommodated the government’s
request, reversed, and remanded for resentencing.
There is something fundamentally wrong and patently
unfair about this whole scenario. It appears that the
government is getting a “Mulligan” for the simple reason

25
that the victim is a United States Senator. If Senator
Paul’s political opinions or political office were somehow
related to the reason for the Petitioner’s actions, then an
entirely different outcome might have been warranted and
obtained at sentencing. But this case has never been about
politics or a clash of political viewpoints; rather, it was a
dispute over lawn maintenance in a gated community,
where one of the principals just happened to be a United
States Senator.
Instead of turning square corners, there is the very
real appearance that we are cutting constitutional corners
in order to hand the government the result that it desires.
Not only did the government waive its right to appeal by
agreeing that the Petitioner would be free to argue for
a below guideline sentence, but the double jeopardy and
due process clauses of the 5th Amendment also provide a
compelling reason for granting the writ that is requested,
as the Petitioner has completely served his sentence.
Respectfully submitted,
Matthew J. Baker
Counsel of Record
911 College Street, Suite 200
Bowling Green, KY 42101
(270) 746-2385
mbakerlaw@bellsouth.net
Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the UNITED
STATES COURT OF APPEALS FOR THE SIXTH
CIRCUIT, FILED SEPTEMBER 9, 2019
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
File Name: 19a0232p.06
No. 18-5683
UNITED STATES OF AMERICA,
Plaintiff-Appellant,
v.
RENE A. BOUCHER,
Defendant-Appellee.
Appeal from the United States District Court for the
Western District of Kentucky at Bowling Green.
No. 1:18-cr-00004-1—Marianne O. Battani,
District Judge.*
July 31, 2019, Argued; September 9, 2019
Decided; September 9, 2019, Filed

* The Honorable Marianne O. Battani, United States District
Judge for the Eastern District of Michigan, sitting by designation
pursuant to 28 U.S.C. § 292(b).

2a
Appendix A
Before: SILER, STRANCH, and NALBANDIAN,
Circuit Judges.
OPINION
JANE B. STRANCH, Circuit Judge. Senator Rand
Paul was mowing his lawn when he stopped to gather a
few limbs in his path. Without warning, Rene Boucher—
Paul’s next-door neighbor, whom he had not spoken with in
years—raced toward Paul and attacked him from behind.
The impact broke six of Paul’s ribs, caused long-lasting
damage to his lung, and led to several bouts of pneumonia.
Boucher later pleaded guilty to assaulting a member
of Congress in violation of 18 U.S.C. § 351(e). Although
his Guidelines sentencing range was 21 to 27 months
in prison, the district court sentenced him to 30 days’
imprisonment. On appeal, the Government argues that
Boucher’s sentence was substantively unreasonable. We
agree and therefore VACATE his sentence and REMAND
for resentencing.
I. BACKGROUND
A. 	Factual Background
Paul and Boucher were neighbors. According to
Paul, their relationship was unremarkable—they had
not directly spoken in years, though they might wave to
one another if they crossed paths on the street. From
Boucher’s perspective, however, problems between them
began in the summer of 2017, when he decided to trim the
branches of five maple trees in Paul’s backyard that had

3a
Appendix A
grown over the Boucher/Paul property line. Sometime
shortly thereafter, Paul dropped a bundle of limbs and
brush at the edge of his property, apparently in the
sightline of Boucher’s home. A few weeks passed and the
bundle remained. Frustrated by the sight of yard debris,
Boucher crossed onto Paul’s property, removed the limbs
and brush, and hauled them off in dumpsters.
The following month, Boucher noticed another bundle
of limbs and brush in roughly the same location. He hauled
it off again. A few days later, a bundle reappeared. This
time Boucher did not haul it away; he poured gasoline
over the debris and lit a match. The ensuing fireball
caught him by surprise. The debris was burned, but so
was Boucher—he suffered second-degree burns on his
arms, neck, and face.
When Paul got on his lawnmower the next day, Boucher
was watching him from the top of a hill overlooking Paul’s
property. According to Boucher, he saw Paul “blow all of
the leaves from his property onto Boucher’s yard.” Paul
then got off his lawnmower, picked up a few more limbs,
and turned toward the site of the burned debris pile.
While Paul had his back to the hill, Boucher ran 60 yards
downhill and hurled himself headfirst into Paul’s lower
back. The impact broke six of Paul’s ribs, including three
that split completely in half. After a brief fracas, Paul left
the scene and called the police.
The Kentucky State Police were the first to respond.
In an interview with officers, Boucher admitted to tackling
Paul but denied doing so because of Paul’s politics. Instead,

4a
Appendix A
he described the assault as the culmination of “a property
dispute that finally boiled over.”
B. 	Procedural History
The Warren County Attorney initially charged
Boucher with Fourth Degree Misdemeanor Assault
under Kentucky law. He was taken into custody for a
few days, after which the FBI intervened and the state
charges were dropped. The Government then indicted
Boucher on one count of assaulting a member of Congress
in violation of 18 U.S.C. § 351(e). Boucher pleaded guilty.
His presentence report (PSR) recommended a five-level
sentencing enhancement because Paul had suffered
“serious bodily injuries.” Boucher did not object. The
five-level increase was partially offset by a three-level
reduction for acceptance of responsibility, resulting in a
Guidelines sentencing range of 21 to 27 months in prison.
At his sentencing hearing, Boucher called three
witnesses. The first was Amy Milliken, the Warren County
Attorney. Milliken testified that “many times in assault
fourth cases, where . . . you’re looking at someone older,
[] who has ties in the community, [] who has a job, [] who
is productive, [and] who has no criminal history, we have
somewhat of a standard plea . . . and that would generally
be 30 days in the Warren County Regional Jail.” But she
also clarified that misdemeanor assault charges were
appropriate for only “minor” injuries, and she did not know
“the extent of [Paul’s] injuries” when she charged Boucher
with Fourth Degree Misdemeanor Assault. Shortly after
the attack, she had asked the Commonwealth Attorney

5a
Appendix A
(who is responsible for filing felony charges) if he would
prefer to charge Boucher with a felony. He told her that
“until [they] had all the facts, . . . he wanted [her] to go
ahead and issue the warrant for assault fourth” so that
they could “get the defendant picked up and get the case
moving.” But before the Commonwealth Attorney could
make a determination about felony charges, “federal
prosecutors assumed [] jurisdiction” over the case.
Boucher’s second witness was Jim Skaggs, one of the
developers of the gated community where Boucher and Paul
live. Skaggs testified that “we had absolutely no problems”
with Boucher, who “always paid his homeowner’s dues and
kept a neat place.” He had “no complaints” about Boucher
as a neighbor but conceded that if he “had broken ribs,
maybe [he would] feel differently about it.” Boucher’s
final witness was Father John Thomas, the priest at his
church. Thomas testified that Boucher was “a friendly,
open, kind, faithful person.” He recalled that Boucher
had visited sick parishioners “a couple of times” and had
“helped with preparation for those who [were] interested
in learning more about the Catholic faith.”
Boucher and his counsel also spoke. Boucher told
the court that he was “sincerely sorry” for the assault,
apologized to Paul and his family, offered to pay for Paul’s
medical expenses, and assured the court that he would
“never do . . . anything like this again.” He added that
he would “prefer not to go to jail for this situation” and
“plead[ed] for the mercy of the court and forgiveness.”
Boucher’s counsel made a similar plea for leniency.
Citing Milliken’s testimony, he argued that “if anyone

6a
Appendix A
else in Warren County [had gotten] involved in a scuffle
over yard trash, . . . we would be in the Warren District
Court” and “the resolution would be a 30-day jail sentence
. . . .” Counsel also emphasized Boucher’s status in the
community:
A felony conviction carries with it, Judge, a
very real stigma, and maybe to some people
a felony conviction isn’t that big of a deal, but
for a person who has become board certified
in two specialties, who’s 60 years old, who is a
devout member of his church, who’s the father
of two wonderful children, and who lives in the
nicest neighborhood in Warren County, by my
evaluation, a felony conviction is a very real
punishment in and of itself.
In lieu of live testimony, the Government responded
by introducing two victim impact statements—one from
Paul and another from his wife, Kelley. Paul described the
extent of his injuries. Because displaced ribs “heal in a
crooked fashion,” “the free ends of [his] ribs grinded over
top of and into each other with any movement,” causing
him “intense pain.” He “had trouble finishing sentences
for lack of air to expel,” and “throughout the night [he]
would pace [while] suffering from involuntary spasmodic
breathing.” After an attempted return to work 10 days
after the assault, his “fever spiked to 102.6 F, despite
being on medication to prevent fevers.” He returned to the
hospital for testing, and “[a] CAT scan showed pneumonia
and fluid around [his] lungs.” Antibiotics briefly resolved
the illness, but a few weeks later “the fevers and spasmodic

7a
Appendix A
breathing returned.” Another trip to the hospital revealed
that Paul had “recurrent pneumonia.” This second bout
of pneumonia cleared after another round of antibiotics,
but additional scans “still show[ed] an area of damaged
lung.” Paul wrote that he might “be at risk for future
pneumonias” and that he still suffered from “chronic
lateral back pain over the ribs.”
Kelley likewise testified that Boucher’s assault began
“a long odyssey of severe pain and limited mobility for”
Paul. “A cough or hiccup would literally drive him to his
knees, his face in a white grimace,” and “[t]he trauma to
his body caused him to suffer night sweats accompanied by
uncontrollable shivering and shaking.” Because Boucher
remained the Pauls’ next-door neighbor after the attack,
Kelley said “the home and backyard [she had] loved for
23 years no longer fe[lt] like my safe sanctuary.” Every
time she walked in their backyard she “wonder[ed] if he
[was] watching out the windows of his house.”
In its closing remarks, the Government argued that
Boucher’s sentence should not be “about who the victim
is” but should reflect “what was done to him, the physical
harm, the being placed in continued fear to even be in
his own backyard, [and] the apprehension of every time
he sees Dr. Boucher in the neighborhood [wondering]
what is going to happen.” The Government also disputed
Boucher’s claim that he would have served only a 30day jail sentence if the case had been prosecuted under
Kentucky law, maintaining that Boucher’s charge “would
have been a felony” given the severity of Paul’s injuries.

8a
Appendix A
The district court nevertheless sentenced Boucher to
30 days in prison. The court’s rationale rested primarily
on two observations. First, it found that the confrontation
was “strictly [] a dispute between neighbors.” Although
Paul said he had not spoken with Boucher in years and was
aware of no tension between them, the court reasoned that
“actions speak louder than words, and . . . one would know
by [Boucher’s] removal that [he] did not like those—that
debris in [his] sightline.” The court described the attack
as an “isolated,” “first-time action,” and felt there was
a “spontaneity about when it happened” that suggested
Boucher would not “get [himself] involved in anything
like this” again.
Second, the court announced that Boucher had an
“excellent background.” He was “an educated person” who
had “gone by 60 years of . . . a good life from the letters
that the court ha[d] reviewed” and “from the witnesses
who testified,” including his pastor and the developer of the
gated community. The court also mentioned that Boucher
had no criminal history, had served in the military, had
“raised two children who [were] doing very well,” and had
“participated in the community in [his medical] practice
and in [his] church.”
After weighing these factors, the court decided
that a within-Guidelines sentence would not “serve any
purpose.” It sentenced Boucher to 30 days in prison
along with 100 hours of community service, one year of
supervised release, and a $10,000 fine. On appeal, the
Government argues that this sentence was substantively
unreasonable.

9a
Appendix A
II. ANALYSIS
A. Substantive Reasonableness
“Substantive reasonableness focuses on whether a
‘sentence is too long (if a defendant appeals) or too short
(if the government appeals).’” United States v. Parrish,
915 F.3d 1043, 1047 (6th Cir. 2019) (quoting United States
v. Rayyan, 885 F.3d 436, 442 (6th Cir. 2018)). A substantive
reasonableness challenge is not defeated by a showing of
procedural reasonableness—for example, by confirming
that the district court addressed each relevant factor
under 18 U.S.C. § 3553(a), or even that it discussed those
factors at length. See Rayyan, 885 F.3d at 442 (“The point
is not that the district court failed to consider a factor . . .
that’s the job of procedural unreasonableness.”); see also
Gall v. United States, 552 U.S. 38, 51, 128 S. Ct. 586, 169
L. Ed. 2d 445 (2007) (describing this error as procedural).
Rather, in gauging the substantive reasonableness of
a sentence, we ask whether the sentencing court gave
reasonable weight to each relevant factor. If “the court
placed too much weight on some of the § 3553(a) factors
and too little on others,” the sentence is substantively
unreasonable regardless of whether the court checked
every procedural box before imposing sentence. Parrish,
915 F.3d at 1047 (quoting Rayyan, 885 F.3d at 442); see
also United States v. Warren, 771 F. App’x 637, 641-42 (6th
Cir. 2019) (reversing upward variance, even though “the
district court engaged in a thorough discussion of several
factors set forth in” § 3553(a), because the district court
placed too much weight on a single factor).

10a
Appendix A
The district court’s decision to assign more or less
weight to a given factor is “a matter of reasoned discretion,
not math, and our highly deferential review of a district
court’s sentencing decisions reflects as much.” Rayyan,
885 F.3d at 442. If a sentence falls within a defendant’s
Guidelines range, for example, it “is presumed reasonable.”
United States v. Christman, 607 F.3d 1110, 1118 (6th Cir.
2010). And even if a sentence falls outside that range, it “is
not per se or even presumptively unreasonable.” United
States v. Borho, 485 F.3d 904, 912 (6th Cir. 2007). In all
cases, this circuit gives sentencing courts broad discretion
to fashion individualized, fact-driven sentences without
interference from appellate courts.
That discretion is not, however, without limit. When a
defendant’s sentence falls above or below the Guidelines
range, we “must consider the extent of the deviation and
ensure that the justification is sufficiently compelling to
support the degree of the variance.” Gall, 552 U.S. at 50.
That is true in part because variances from the Guidelines
risk creating unwarranted disparities among similarly
situated defendants nationwide. In fact, the Sentencing
Reform Act of 1984—which created the Sentencing
Commission and the Guidelines it promulgates—was
designed to guard against those very disparities. See
Dorsey v. United States, 567 U.S. 260, 265, 132 S. Ct. 2321,
183 L. Ed. 2d 250 (2012). One role of appellate courts is to
balance these competing goals—to honor the discretion
afforded to sentencing courts on the one hand, and to avoid
unjustified disparities on the other.

11a
Appendix A
The Supreme Court has told us how to strike that
balance. To avoid sentence disparities, the Guidelines
provide a transparent and predictable sentencing range
for defendants who fall within the “heartland” of average
cases “to which the Commission intends individual
Guidelines to apply.” Kimbrough v. United States, 552 U.S.
85, 109, 128 S. Ct. 558, 169 L. Ed. 2d 481 (2007) (quoting
Rita v. United States, 551 U.S. 338, 351, 127 S. Ct. 2456,
168 L. Ed. 2d 203 (2007)). When a district court varies
outside the guideline range, then, we expect the court to
explain what distinguishes that defendant’s case from a
typical one. If the district court reasonably explains why
the defendant’s unique circumstances fall outside the
“heartland” of cases affected by the relevant guideline,
then the “court’s decision to vary . . . may attract greatest
respect.” Id. But if the district court fails to distinguish
the defendant’s circumstances from a “mine-run case”
under the applicable guideline, then “closer review may
be in order.” Id. The reason for this “closer review” is
simple—the more a sentencing court strays from the
Guidelines in a mine-run case, the greater the risk that
the defendant’s sentence will create unfair disparities.
We have applied this lesson in our own caselaw. In
United States v. Aleo, for example, we reversed an upward
variance because the district court “did not reasonably
distinguish [the defendant’s case] from other[s]” involving
similar crimes. 681 F.3d 290, 302 (6th Cir. 2012). More
recently, in Warren, we vacated an above-Guidelines
sentence where “the only reason the court gave for [the
sentence] disparity was [the defendant’s] criminal record.”
771 F. App’x at 641. Because “his criminal history was

12a
Appendix A
already incorporated into the Guidelines-recommended
sentence,” the variance was “inconsistent with the need
to avoid unwarranted sentence disparities.” Id. at 642
(citation and internal quotation marks omitted).
The Supreme Court’s guidance and our own precedents
offer two principal takeaways. First, when a district court
varies above or below the Guidelines, we “must consider
the extent of the deviation and ensure that the justification
is sufficiently compelling to support the degree of the
variance.” Gall, 552 U.S. at 50. “The farther the judge’s
sentence [varies] from the guidelines sentence . . . the
more compelling the justification based on factors in
section 3553(a) must be.” Aleo, 681 F.3d at 302 (citation
and internal quotation marks omitted). Second, in looking
for that compelling justification, a key question is whether
the defendant’s case falls within “the ‘heartland’ to
which the Commission intends individual Guidelines to
apply.” Kimbrough, 552 U.S. at 109 (quoting Rita, 551
U.S. at 351). If the district court reasonably explains
why the defendant’s case falls outside the heartland,
then the sentence “may attract greatest respect.” Id. But
“a sentence that [varies] from the advisory range in a
‘mine-run case’ warrants ‘closer review.’” United States v.
Herrera-Zuniga, 571 F.3d 568, 582 (6th Cir. 2009) (quoting
Kimbrough, 552 U.S. at 109).
Here, the district court sentenced Boucher to 30
days’ imprisonment, though his Guidelines range was 21
to 27 months. That represented an eight-step decrease in

13a
Appendix A
Boucher’s total offense level1 and a 95% reduction from
the lowest end of his recommended sentence. Although
we do not reduce substantive reasonableness review to “a
rigid mathematical formula,” Gall, 552 U.S. at 47, the size
of the variance remains relevant to our analysis. See id.
at 50 (“We find it uncontroversial that a major [variance]
should be supported by a more significant justification
than a minor one.”). The question, then, is whether the
district court gave a “sufficiently compelling” reason for
the dramatic downward variance in this case. Id.
B. 	The § 3553(a) Factors
1. 	The Nature and Circumstances of the Offense
The nature and circumstances of Boucher’s crime
do not lift this case “outside the ‘heartland’ to which the
Commission intends [the assault guideline] to apply.”
Kimbrough, 552 U.S. at 109 (quoting Rita, 551 U.S. at
351). After summarizing the history of this yarddebris
controversy, the district court reasoned that the conflict
between Paul and Boucher was simply an apolitical
“dispute between neighbors.” Although a defendant’s
motive is a relevant— and often important—factor under
the Guidelines, Boucher’s lack of political motivation
does not meaningfully distinguish his offense from a
mine-run assault case under federal law. The relevant
guideline, USSG § 2A2.2, covers a range of assault crimes,
1. Boucher’s total offense level was 16. The highest offense
level to include a one-month sentence is an offense level of 8,
which has a recommended sentencing range of zero to six months’
imprisonment. See USSG ch. 5, pt. A, Sentencing Table.

14a
Appendix A
not just those involving political figures. This guideline
also applies, for example, to certain assaults “within the
special maritime and territorial jurisdiction of the United
States,” 18 U.S.C. § 113, and to “assaulting, resisting, or
impeding” federal officers, 18 U.S.C. § 111. Assault cases
under either of those statutes will rarely involve a political
motive, but they will frequently fall within the heartland
of § 2A2.2. Apart from Boucher’s apolitical motivation,
the district court never differentiated his attack from
a garden variety assault case under the Guidelines. See
Herrera-Zuniga, 571 F.3d at 582.
While the district court focused heavily on the isolated,
apolitical nature of the dispute, it gave little weight to “the
need for the sentence imposed . . . to reflect the seriousness
of [Boucher’s] offense.” See 18 U.S.C. § 3553(a)(2)(A). The
court did not address Paul’s six broken ribs, his damaged
lung, his bouts of pneumonia, or his chronic pain. 2 And
although the court briefly recognized that Boucher’s
“sentence should not . . . diminish the seriousness of the
harm that was caused to the senator,” it did not explain
why Boucher’s 30-day sentence accounted for the severity
of Paul’s injuries. Summary reference to “the seriousness
of the harm,” without tying that harm to the 30-day
sentence imposed, was not enough. See, e.g., United States
v. Peppel, 707 F.3d 627, 635-36 (6th Cir. 2013) (noting “that
a district court must explain how a sentence comports
with the level of seriousness of the crime committed,”
2. The court did allude to Paul’s “five or six broken ribs” when
questioning Milliken earlier in the sentencing hearing. But it did
not discuss Paul’s injuries during its application of the § 3553(a)
factors.

15a
Appendix A
and faulting the court for merely “acknowledg[ing]
the seriousness of the offense in broad terms” without
“explain[ing] why the [defendant’s sentence] was sufficient
to reflect the seriousness of [his] crimes”).
2. 	Deterrence
Closely related to the seriousness of Boucher’s
assault is “the need to afford adequate deterrence to
criminal conduct.” 18 U.S.C. § 3553(a)(2)(B). This factor
includes two components—specific deterrence and general
deterrence. Specific deterrence looks to dissuade an
individual defendant from committing future crimes,
while general deterrence aims to have the same effect on
“the population at large.” United States v. Camiscione,
591 F.3d 823, 834 (6th Cir. 2010).
The district court fairly weighed the need (or lack
thereof) to deter Boucher from committing other crimes.
As explained, the court found that Boucher’s attack was an
“isolated,” “first-time action,” and considered it unlikely
that he would “get [himself] involved in anything like this”
again. On the other hand, the court gave little weight to
the need to promote general deterrence—even though
“[c]onsideration of general deterrence is particularly
important where the district court varies substantially
[downward] from the Guidelines.” United States v.
Musgrave, 761 F.3d 602, 609 (6th Cir. 2014). Accepting
that Boucher’s attack did not appear to be politically
motivated, Paul’s status as a national political figure is
still relevant to the broader “goals of societal deterrence”
served by Boucher’s sentence. United States v. Davis, 537

16a
Appendix A
F.3d 611, 617 (6th Cir. 2008). Congress saw fit to make
§ 351(e) a strict liability crime in the interest of protecting
our elected representatives from harm. It was the district
court’s responsibility to explain why those interests did
not warrant a within-Guidelines sentence; but it never
gave that explanation here. See Musgrave, 761 F.3d at
609 (“Where a district court’s view of a particular crime’s
seriousness appears at odds with that of Congress and
the Sentencing Commission, we expect that it will explain
how its sentence nevertheless affords adequate general
deterrence.”).
3. 	History and Characteristics
The district court also commended Boucher’s “excellent
background.” It spotlighted his education, medical practice,
reputation in the community, involvement in his church,
lack of criminal history, military background, and two
children who “are doing very well.” In its “Statement of
Reasons” submitted after sentencing, the court repeated
that Boucher was “a 60 year old highly educated medical
doctor, Army veteran, father, church member, and good
standing community member with no criminal history.”
While these factors might distinguish Boucher from a
mine-run defendant convicted of assault, they are almost
all disfavored as grounds for a below-Guidelines sentence. 3
Congress has instructed the Sentencing Commission
3. The lone exception is Boucher’s military service, which
“may be relevant” under the Guidelines if it is “present to an
unusual degree.” USSG § 5H1.11. That was arguably the case
here—Boucher served in the Army for eight years and achieved
the rank of Major.

17a
Appendix A
to “assure that the guidelines and policy statements, in
recommending a term of imprisonment . . . reflect the
general inappropriateness of considering the education,
vocational skills, employment record, family ties and
responsibilities, and community ties of the defendant.”
28 U.S.C. § 994(e). The Guidelines’ policy statements do
just that. See USSG § 5H1.2 (“Education and vocational
skills are not ordinarily relevant [to a defendant’s
sentence.]”); id. § 5H1.5 (“Employment record is not
ordinarily relevant.”); id. § 5H1.6 (“[F]amily ties and
responsibilities are not ordinarily relevant.”); id. § 5H1.11
(“Civic, charitable, or public service . . . and similar good
works are not ordinarily relevant.”); id. § 5H1.1 (noting
age “may be relevant” only if “present to an unusual
degree”). And although a defendant’s criminal record is
relevant to “determining the applicable criminal history
category,” id. § 5H1.8, it is usually not a proper reason for
a variance precisely because the Guidelines already take it
into account. See Warren, 771 F. App’x at 642 (explaining
that a variance based on the defendant’s criminal history
risks creating “unwarranted sentence disparities”
between the defendant and “other offenders in the same
criminal history category” (citation and internal quotation
marks omitted)); see also United States v. Kirchhof, 505
F.3d 409, 415 (6th Cir. 2007) (“[The defendant’s] lack of
prior criminal history was already taken into account in
calculating his guidelines range, and according to the
advisory policy statements contained in the guidelines,
his other personal characteristics are ‘not ordinarily
relevant.’” (citation omitted)).
These factors are disfavored for good reason. To
prioritize a defendant’s education, professional success,

18a
Appendix A
and standing in the community would give an additional
leg up to defendants who are already in a privileged
position. Indigent defendants are less likely to impress
a sentencing court with their education, employment
record, or local reputation. But they are no less deserving
of a reasonable and compassionate sentence. That is why
Congress and the Guidelines oppose a class-based system
where accumulated wealth, education, and status serve as
credits against a criminal sentence. See, e.g., Musgrave,
761 F.3d at 608 (cautioning district courts not to rely on
factors that “would tend to support shorter sentences
in cases with defendants from privileged backgrounds”
(citation omitted)); Peppel, 707 F.3d at 641 (“[W]e do not
believe criminals with privileged backgrounds are more
entitled to leniency than those who have nothing left to
lose.” (citation and internal quotation marks omitted)).
This is not to say that sentencing courts are prohibited
from weighing factors disfavored under the Guidelines.
These factors may, for example, still “be relevant insofar as
they bear some connection to permissible considerations.”
United States v. Stall, 581 F.3d 276, 289 (6th Cir. 2009).
A defendant’s personal or professional success after his
last incarceration, while not always relevant in isolation,
might demonstrate an honest effort to turn his life around.
Cf. United States v. Collington, 461 F.3d 805, 809 (6th
Cir. 2006) (citing with approval the sentencing court’s
discussion of the defendant’s “desire to reform”). But while
“the fact that a factor is discouraged or forbidden under
the guidelines does not automatically make it irrelevant
when a court is weighing statutory factors apart from
the guidelines,” Section 3553(a)(5) still “requires that

19a
Appendix A
the district court consider applicable policy statements
issued by the Sentencing Commission, and the Guidelines’
disfavored view toward [these factors] is, therefore,
relevant to our reasonableness review.” Christman, 607
F.3d at 1119 (citations omitted). The district court did
not acknowledge that Congress and the Guidelines view
these factors with suspicion or explain what unusual
circumstances justified relying on them here. These simple
markers of privilege did not warrant an extreme variance
in Boucher’s case. See id. (holding that the district court
erred by citing the defendant’s “educational background
and skill” as mitigating factors without identifying what
“unusual circumstances” warranted reliance on those
factors); Kirchhof, 505 F.3d at 415 (“Kirchhof offers no
reason why these [disfavored] characteristics . . . are
unusually relevant in his case.”).
4.

Unwarranted Sentence Disparities

The last key factor is the need to avoid unwarranted
sentence disparities. See 18 U.S.C. § 3553(a)(6). This
consideration touches on all of the § 3553(a) factors discussed
above—the better the district court’s explanation for its
individualized, fact-driven sentence, the lesser the risk
that the sentence will create unjustified disparities. But
if the district court gives unreasonable weight to one or
more of these factors, the danger of unwarranted disparity
increases in tandem. See Peppel, 707 F.3d at 639-40; see
also United States v. Henry, 545 F.3d 367, 386-87 (6th
Cir. 2008) (“In sum, there is no means for judges [to] avoid
such disparities in the first instance, or correct them on
review, without demanding that substantial variances be

20a
Appendix A
supported by substantial reasons.” (citation and internal
quotation marks omitted)).
We first distinguish between disparities that matter
and those that do not. At sentencing, Boucher urged the
court to consider the 30-day sentence that first-time
offenders may receive when they plead guilty to Fourth
Degree Misdemeanor Assault under Kentucky law.
Although the court gave Boucher a 30-day sentence, it
did not say that it had calculated Boucher’s prison term
by reference to the sentence he might have received
under Kentucky law. At any rate, “it is impermissible for
a district court to consider the defendant’s likely state
court sentence as a factor in determining his federal
sentence.” United States v. Malone, 503 F.3d 481, 486 (6th
Cir. 2007). Because state courts may sentence defendants
according to their own criteria without reference to the
Guidelines, permitting federal courts to rely on statecourt criteria would “enhance, rather than diminish,
disparities” among similarly situated federal defendants.
Id. And even if consideration of Boucher’s potential
Kentucky sentence were proper, the Warren County
Attorney testified that misdemeanor assault charges are
appropriate for only “minor” injuries, and she did not
know “the extent of [Paul’s] injuries” when she initially
charged Boucher with Fourth Degree Misdemeanor
Assault. The Commonwealth Attorney’s review of the
case was incomplete when federal agents intervened. It
is clear that Paul’s injuries—which included six broken
ribs, a damaged lung, bouts of pneumonia, and chronic
back pain—were more than minor.

21a
Appendix A
The only disparities relevant in this case are those
among federal defendants on a national scale. In its
submission to the district court before sentencing, the
Government cited over a dozen examples of defendants
sentenced for assault under federal law. Only three of
those cases involved violations of the statute at issue here,
18 U.S.C. § 351(e). In the first two, each defendant received
a 30-day sentence for throwing eggs at a congressman
during a campaign event (the eggs missed). See United
States v. Guerrero, 667 F.2d 862, 864-65 (10th Cir. 1981);
United States v. Calderon, 655 F.2d 1037, 1038 (10th
Cir. 1981). In the third, the defendant received a 15-day
sentence for spitting on a senator at an airport. See United
States v. Masel, 563 F.2d 322, 322-23 (7th Cir. 1977). These
prison terms were similar to Boucher’s, but the offense
conduct was quite different—as the Government argues,
“it is difficult to understand why a tackle resulting in
long-term serious injuries warrants the same sentence as
an egg toss or spit in the face.” While that is true, those
three cases occurred roughly 40 years ago, before the
Sentencing Commission or the Guidelines even existed.
Their age and limited number make them less helpful to
our analysis.
The more telling comparators are in cases drawn from
other federal assault statutes. The Government cites, for
example, several cases involving “assault resulting in
serious bodily injury within U.S. territorial jurisdiction,”
18 U.S.C. § 113(a)(6), and others involving “assaulting,
resisting, or impeding” federal officers, 18 U.S.C. § 111.
Some of these defendants had lengthy criminal records,
making their sentences irrelevant. See 18 U.S.C. § 3553(a)

22a
Appendix A
(6) (noting that courts should “avoid unwarranted sentence
disparities among defendants with similar records who
have been found guilty of similar conduct”). But others
involved defendants who, like Boucher, had a criminal
history category of I. Three occurred on Native American
reservations and resulted in sentences of 48 months, 41
months, and 43 months, respectively. See United States v.
Barrera, 628 F.3d 1004, 1006 (8th Cir. 2011); United States
v. Ravensborg, 776 F.3d 587, 587-88 (8th Cir. 2015) ; United
States v. Sayers, 580 F. App’x 497, 498 (8th Cir. 2014). In
the remaining two, one defendant received a 24-month
sentence for pushing a door into the arm of a government
doctor, see United States v. Clayton, 615 F. App’x 587,
588-91 (11th Cir. 2015), and the other received a 21-month
sentence for giving a customs officer a bloody nose and ear
during a “brief melee” on a cruise ship. United States v.
Gutierrez, 745 F.3d 463, 466-69 (11th Cir. 2014).
National statistics tell a similar story. Cf. United States
v. Stock, 685 F.3d 621, 629 n.6 (6th Cir. 2012) (explaining
that national sentencing data released by the Commission
should serve as “a starting point for district judges in
their efforts to avoid unwarranted sentence disparities”)
(citation and internal quotation marks omitted). The most
recent Commission data shows that federal defendants
with a criminal history category of I who were convicted
of assault received an average sentence of 26 months’
imprisonment and a median sentence of 21 months. See
U.S. Sentencing Commission, Length of Imprisonment for
Offender in Each Criminal History Category by Primary
Offense Category, Table 14 (2017), https://isb.ussc.gov/
api/repos/:USSC:table_xx.xcdf/generatedContent?table_

23a
Appendix A
num=Table14. And those with the lowest criminal history
category who were sentenced under the guideline at
issue here, § 2A2.2, received an average sentence of
37 months’ imprisonment and a median sentence of 27
months. See U.S. Sentencing Commission, Length of
Imprisonment for Offender in Each Criminal History
Category by Primary Sentencing Guideline, Table 14G
(2017), https://isb.ussc.gov/api/repos/:USSC:table_xx.xcdf/
generatedContent?table_num=Table14G.
Despite these comparators, the district court failed
to address the risk of sentence disparities. Of course, a
sentence may be substantively reasonable even when the
court does not squarely address this factor. See Gall,
552 U.S. at 54 (suggesting we may infer that the court
considered this factor if the record otherwise shows that
it “carefully reviewed the Guidelines range”). But the
risk of disparity is more acute in mine-run cases like
this one. And that risk intensifies when the defendant
receives a sentence well outside the Guidelines range.
The unremarkable nature of this case—coupled with
the court’s substantial variance from the Guidelines—
warranted a more careful discussion about the relationship
between Boucher’s sentence and the danger of unjustified
disparities.
III. CONCLUSION
In a mine-run case like this one, we apply “closer
review” to any variance from the Guidelines. Kimbrough,
552 U.S. at 109 (quoting Rita, 551 U.S. at 351). And
our review here reveals no compelling justification for

24a
Appendix A
Boucher’s well-below-Guidelines sentence. Gall, 552 U.S.
at 50. Boucher may or may not be entitled to a downward
variance after the district court reweighs the relevant
§ 3553(a) factors, and it is the district court’s right to make
that decision in the first instance. See United States v.
Johnson, 239 F. App’x 986, 993 (6th Cir. 2007) (“This Court
takes no position on what an appropriate sentence in this
case might be and notes that on remand the district court
still retains ample discretion to grant a variance. . . . The
narrow reason for remand here is that the extreme nature
of the deviation, without a correspondingly compelling
justification, resulted in a substantively unreasonable
sentence.”). We therefore VACATE Boucher’s sentence
and REMAND for resentencing.

25a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES COURT OF APPEALS FOR THE SIXTH
CIRCUIT, FILED SEPTEMBER 26, 2018
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
File Name: 18a0218p.06
No. 18-5683
UNITED STATES OF AMERICA,
Plaintiff-Appellant,
v.
RENE A. BOUCHER,
Defendant-Appellee.
September 26, 2018, Decided
September 26, 2018, Filed
Appeal from the United States District Court for the
Western District of Kentucky at Bowling Green. No.
1:18-cr-00004-1—Marianne O. Battani, District Judge.*
Before: NORRIS, SILER, and SUTTON, Circuit
Judges.
*

The Honorable Marianne O. Battani, United States District
Judge for the Eastern District of Michigan, sitting by designation
pursuant to 28 U.S.C. § 292(b).

26a
Appendix B
ORDER
SUTTON, Circuit Judge. Rene Boucher pleaded guilty
to assaulting a member of Congress. The government
sought a 21-month sentence, at the low end of Boucher’s
guidelines range. The district court instead sentenced
Boucher to thirty days’ imprisonment. The government
appealed.
Boucher moves to dismiss the appeal, contending that
the plea agreement bars the government from appealing
the sentence. That is a new question for us. But two rules
of thumb about plea agreements provide the answer. One
is that the government by statute has the right to appeal
a defendant’s sentence on a number of grounds. See 18
U.S.C. § 3742(b). The other is that plea agreements amount
to contracts and may be construed to give up only those
rights one party or the other has agreed to waive in the
written agreement. United States v. Bowman, 634 F.3d
357, 360 (6th Cir. 2011); see United States v. Benchimol,
471 U.S. 453, 456, 105 S. Ct. 2103, 85 L. Ed. 2d 462 (1985)
(per curiam).
In this instance, the plea agreement says nothing about
waiving the government’s right to appeal. It mentions only
Boucher’s waiver of his right to appeal. That is all anyone
needs to know to conclude that the agreement does not
waive the government’s statutory right to appeal. Just as
we would not infer that a defendant has waived his right
to appeal in the context of an agreement that waived only
the government’s right to appeal, we must do the same in
the other direction.

27a
Appendix B
Nor can the defendant realistically maintain that no
consideration supports his appeal waiver. The prosecutor
agreed to seek a 21-month sentence and recommend an
acceptance-of-responsibility reduction in return for the
agreement, and kept that promise. And nothing requires
the government or the court to break down each promise
and connect it to an item of consideration. United States
v. Hare, 269 F.3d 859, 861-62 (7th Cir. 2001). One other
thing. United States Attorneys have no right to control
appeals by the government. That authority rests with the
Solicitor General of the United States. 28 C.F.R. § 0.20(b);
see Hare, 269 F.3d at 861.
United States v. Guevara, 941 F.2d 1299, 1299-300
(4th Cir. 1991), it is true, reached the opposite conclusion.
It held that a plea agreement’s waiver of the defendant’s
appellate rights implied a like waiver of the government’s
appellate rights. The Fourth Circuit offered no support
for this unusual interpretation. And several members of
the court expressed doubt about it. See United States v.
Guevara, 949 F.2d 706, 706-08 (4th Cir. 1991) (Wilkins,
J., with Wilkinson, Niemeyer, and Luttig, J.J., dissenting
from denial of rehearing en banc).
We side with the other circuits, who follow customary
interpretive principles about agreements, accepting
waivers when waivers are made and denying waivers when
waivers are not made. See United States v. Anderson, 921
F.2d 335, 337-38 (1st Cir. 1990); Hare, 269 F.3d at 861-62;
United States v. Hammond, 742 F.3d 880, 883 (9th Cir.
2014). Yes, the government must “turn square corners”
in its own conduct. Heckler v. Comm’y Health Servs. of

28a
Appendix B
Crawford Cty., Inc., 467 U.S. 51, 61 n.13, 104 S. Ct. 2218,
81 L. Ed. 2d 42 (1984) (quotation omitted). But that does
not mean it must take turns to which it never agreed.
Moving from the lang uage of the ag reement,
Boucher argues that the government promised orally
not to appeal his sentence. As support, he points to
a pre-plea communication from the Assistant U.S.
Attorney indicating that defense counsel would be free to
recommend any authorized sentence, as well as language
from the presentence report that Boucher reads as an
agreement not to oppose defense counsel’s recommended
sentence. But neither source constrains the government’s
right to appeal or its arguments on appeal. On top of
that, the written plea agreement “supersede[s] all prior
understandings, if any, whether written or oral, and
cannot be modified other than in writing signed by all
parties or on the record.” R. 5 at 9. All of this takes us back
to bedrock contract and plea agreement principles: The
“determinative factor in interpreting a plea agreement is
not the parties’ actual understanding of the terms of the
agreement; instead, an agreement must be construed as
a reasonable person would interpret its words.” United
States v. Moncivais, 492 F.3d 652, 663 (6th Cir. 2007).
Whatever Boucher may have believed, the four corners of
the plea agreement restrict his appellate rights, not the
government’s or anyone else’s.
For these reasons, we deny Boucher’s motion to
dismiss and deny as moot his motion for oral argument.

29a
Appendix B
ENTERED BY ORDER OF
THE COURT
/s/				
Deborah S. Hunt, Clerk

30a
Appendix C OF SENTENCING
APPENDIX C — TRANSCRIPT
HEARING OF THE UNITED STATES DISTRICT
COURT, WESTERN DISTRICT OF KENTUCKY,
BOWLING GREEN DIVISION,
DATED JUNE 15, 2018
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
BOWLING GREEN DIVISION
Case No. 1:18-CR-00004-MOB
UNITED STATES OF AMERICA,
Plaintiff,
VS.
RENE A. BOUCHER,
Defendant.
June 15, 2018
Bowling Green, Kentucky
TRANSCRIPT OF SENTENCING HEARING
BEFORE HONORABLE MARIANNE O. BATTANI
UNITED STATES SENIOR DISTRICT JUDGE
[2](Begin proceedings in open court at 10:07 a.m.)

31a
Appendix C
DEPUTY CLERK: Case Number 1:18-CR-4,
United States of America v. Rene Boucher. We’re here
this morning for a sentencing hearing.
THE COURT: Good morning. May I have your
appearances, please.
MR. SHEPARD: Assistant United States Attorney
Brad Shepard on behalf of the Government, Your Honor.
Seated with me at counsel table is Special Agent Kenda
Bryant of the Federal Bureau of Investigation. Good
morning.
THE COURT: Defense.
MR. BAKER: Good morning, Your Honor. My name
is Matt Baker. I practice law here in Bowling Green. I’m
here for the defendant, Rene Boucher.
THE COURT: Okay. All right. If you would please
come to the podium with your client, Mr. Baker.
Dr. Boucher, did you review the presentence
investigation report?
THE DEFENDANT: Yes, ma’am.
THE COURT: And did you go over it with your
attorney?
THE DEFENDANT: Yes, ma’am.

32a
Appendix C
THE COURT: And, Mr. Baker, I don’t have any
objections to the report; is that correct?
MR. BAKER: That is correct, Your Honor.
THE COURT: Okay. The report indicates that the
[3]guideline provisions are 21 to 27 months, and the plea
agreement is 21 months; is that correct?
MR. BAKER: Yes, ma’am.
THE COURT: Okay. And the Government has no
objections to the presentence report?
MR. SHEPARD: That is correct, Your Honor.
THE COURT: All right. Then we’re ready to
proceed with sentencing.
Mr. Baker, do you wish to proceed first? You have
some witnesses, you indicated?
MR. BAKER: Yes, please.
THE COURT: Okay. Doctor, you may sit down
while this is going on.
THE DEFENDANT: Thank you, ma’am.
THE COURT: You may call your first witness.
MR. BAKER: Your Honor, in my prior submissions

33a
Appendix C
to the court, I indicated there would be more witnesses
than will actually be here today. I’ll have three and my
client would like to make a short statement.
THE COURT: All right.
MR. BAKER: So if I could call my first one, please.
THE COURT: You may.
MR. BAKER: Call Amy Milliken, please.
THE COURT: Okay. Amy, your last name?
THE WITNESS: Milliken.
[4]THE COURT: Milliken?
THE WITNESS: Milliken, M-I-L-L-I-K-E-N.
THE COURT: We had a governor in Michigan,
Milliken. Is that -THE WITNESS: I’m sorry?
THE COURT: We had a governor in Michigan,
Milliken. Is that a relation?
THE WITNESS: I saw that. It is not, but I did, I
saw that.
THE COURT: Thank you.

34a
Appendix C
(AMY MILLIKEN, called by the defendant, sworn.)
DIRECT EXAMINATION
BY MR. BAKER:
Q. State your name, please.
A. Amy Milliken.
Q. Where do you live?
A. Here in Bowling Green.
Q. Ms. Milliken, what is your job or your profession, please?
A. I’m the Warren County attorney.
Q. What is a Warren -- what is the Warren County
attorney? What is the county attorney?
A. The county attorney is an elected official here in
Kentucky. I’m a constitutional officer. I’m in charge of all
the prosecution in District Court here in Warren County.
I prosecute misdemeanors, juvenile, public offenders. I
handle [5]all the family court dependency, abuse, and
neglect cases. I handle all the child support in Warren
County. I represent the Warren Fiscal Court and all of
its entities.
Q. You wear a lot of hats?

35a
Appendix C
A. I wear several hats.
Q. And one of those hats is being the chief prosecutor for,
essentially, misdemeanor offenses in District Court?
A. That is correct.
Q. Do you have a staff?
A. I do.
Q. How many attorneys are working within your office?
A. I have eight attorneys.
Q. And do those attorneys assist you in the prosecution of
those misdemeanor cases?
A. Every day, yes, sir.
Q. And there are three district judges?
A. Three district judges.
Q. How long have you been the county attorney?
A. Since -- I have been there for 14 years, since 2004. I
have been in the office since 1996.
Q. You were an assistant?
A. Yes, sir.

36a
Appendix C
Q. And then Mr. Caudill left that office, and you ran in the
next election?
A. I did, yes.
[6]Q. Currently on the ballot?
A. Currently on the ballot for November.
Q. Unopposed?
A. Unopposed, best way to run.
Q. All right. Ms. Milliken, last November 3rd, did you –
were you working on that day?
A. I was.
Q. I believe it was a Friday.
A. It was a Friday. I remember that day.
Q. Did you receive word that there had been an incident
in the Rivergreen subdivision?
A. I did.
Q. Tell the court what you remember about that intake or
that word.
A. It was a Friday afternoon and I was actually trying
to leave work early and it did not happen. I happened to

37a
Appendix C
actually stay late that day. And one of my new assistant
county attorneys came to me and said, “I’m concerned
about a case. It’s an assault fourth out at Rivergreen, and
I -- would you mind to stay when the trooper gets here?”
And I said I would.
The trooper came. It was Trooper Weaver with the
Kentucky State Police. I know him and he and I sat down
and discussed the case.
Q. Did you learn the identity of what was to be the
defendant?
A. Yes. He was a little sketchy at first on the name, but,
[7]yes, I did learn not only the defendant but also the
victim.
Q. The defendant is Dr. Rene Boucher?
A. Yes.
Q. And the victim was Senator Rand Paul?
A. Correct.
Q. Did the trooper indicate to you that he had taken an
interview from the senator?
A. Yes, I believe he did, because I wouldn’t prosecute
without talking to both parties so, yes.
Q. And that he had interviewed Dr. Boucher?

38a
Appendix C
A. Yes.
Q. And based upon the trooper’s investigation, at least at
that point, at that moment in time, if you will, did you and
the trooper follow up with a warrant?
A. We did. We issued a warrant for assault fourth.
Q. What is assault fourth degree?
A. It is a Class A misdemeanor in Kentucky. It’s the highest
level of crime that I prosecute in District Court.
Q. A Class A misdemeanor is -- maximum punishment is
what?
A. One year in jail.
Q. One year in the county jail?
A. Correct.
Q. The warrant was issued; correct?
A. Yes, correct.
Q. I think all the lawyers in the room know how that
process [8]works, but do you have to contact a judge to
get that done?
A. You do. We now have e-warrants, which makes it much
easier. I can email the information to the judge, but I try

39a
Appendix C
to contact the judge to let them know this is an emergency.
You need to go ahead and look at this, because sometimes
they don’t always look at their emails on e-warrants.
And I contacted the on-call judge, but I don’t believe
-- if memory is correct, I don’t believe I could get in touch
with the on-call judge. I called a second judge, who agreed
to initially sign it and then thought better of it, based on
the victim and maybe the notoriety, and called back and
said, “Find the on-call judge,” so we did. We found the
on-call judge.
Q. The on-call judge was Judge Brent Potter?
A. I believe so.
Q. And did you also conference the matter with the
commonwealth attorney?
A. I did. I contacted the commonwealth attorney just
because I wanted him to know the facts of the case, to see
if he would rather step in and take the case, rather than
me prosecute the case. And he indicated that until we had
all the facts, until everything shook out, he wanted me
to go ahead and issue the warrant for assault fourth. We
would go ahead and get the defendant picked up and get
the case moving.
Q. All right. So to the best of your knowledge, was the
warrant issued?
[9]A. The warrant was issued, yes, it was.

40a
Appendix C
Q. Was it served?
A. It was served.
Q. And was Dr. Boucher taken into custody?
A. He was taken into custody and I think maybe remained
that weekend.
Q. I think that’s right.
A. Okay.
Q. Was there an arraignment in the Warren District
Court?
A. There was.
Q. You probably remember the paparazzi that day.
A. I do.
Q. In Judge Brent Potter’s court?
A. I do, yes.
Q. And so at some point, the offices of the United States
Government, the federal prosecutors assumed the
jurisdiction -A. They did.

41a
Appendix C
Q. -- of these proceedings. Was the matter in the Warren
District Court ultimately dismissed and without prejudice?
A. It was and that’s protocol when another -- when the
federal court takes it.
Q. Ms. Milliken, the reason I wanted you to be here today
is to simply develop one or two points for the benefit of my
client and the court. If the prosecution of a fourth degree
assault goes forward in the Warren District Court, and
if such a [10]prosecution has the basic or the essential
facts that were presented to you in this case, and if the
defendant is willing to resolve that by a plea agreement,
and the defendant does not have a criminal history, and
he’s 60 years old, does your office have sort of a standard
plea offer that they are willing to make?
A. I try to tell everyone I treat everyone the same and
every case is unique. What we do is we do look at criminal
history, the age of the defendant, whether or not we can
-- you know, as county attorney, when you represent the
county, you represent the jail -- excuse me -- and I know
that everyone I put in jail under the county’s -- I call it “the
county’s dime” -- I know that the county tax payers are
paying for that. So I’m constantly looking for alternative
sentencing. Can I mediate between two neighbors? Can I
do that? Can I send them to someone to do that? Can I fix
the situation, rather than just jail someone immediately?
Jail is not the first thing I think of in District Court.
Sometimes treatment is necessary, whether it be alcohol
or drug treatment. I know that’s not the case here, but

42a
Appendix C
I’m saying that to tell you every case is unique, and I try
to do what’s best in every situation.
Many times in assault fourth cases, where you have
someone who is not 20 years old who may go assault
again immediately as soon as I let him or her out, you’re
looking at someone older, [11]someone who has ties in
the community, someone who has a job, someone who
is productive, someone who has no criminal history, we
have somewhat of a standard plea -- excuse me -- and that
would generally be 30 days in the Warren County Regional
Jail probated for a year on condition they have no other
criminal offenses, that they stay away from the party that
they’ve assaulted, unless there’s mediation necessary.
Sometimes I will like, again, refer them to treatment.
And so I try to fix the situation, because a lot of times in
District Court in Warren County, there are just issues that
can be resolved and not merely settled in the courtroom.
I try to fix it.
MR. BAKER: Your Honor, those are all my
questions. Thank you.
THE COURT: I have a question.
THE WITNESS: Yes, ma’am.
THE COURT: Does the injury to the victim come
into play or consideration?

43a
Appendix C
THE WITNESS: Absolutely. And that may change
the level of the crime. I just prosecute misdemeanors and
assault fourth is a minor injury.
THE COURT: Assault fourth is what?
THE WITNESS: Is a minor injury.
THE COURT: All right.
THE WITNESS: Does that answer your question,
Your [12]Honor?
THE COURT: In this case we have five or six
broken ribs. Is that a minor injury in your litigation?
THE WITNESS: Well, I tell you what I would do,
if a victim believes that their injury is more than a minor
injury -- because I’m not a physician, but if they say that’s
more than a minor injury, what I would do is refer that
to the commonwealth attorney, because in Kentucky the
commonwealth attorney prosecutes felonies and that’s the
next level after my misdemeanor.
And, generally, what the commonwealth attorney
would do is present that to the grand jury and let the -- let
the 12 grand jurors make a determination whether or not
it’s a substantial injury or a minor injury and whether or
not it would be a misdemeanor or a felony.
THE COURT: Okay.

44a
Appendix C
THE WITNESS: Thank you.
THE COURT: Mr. Shepard.
MR. SHEPARD: Well, Your Honor, you kind of stole
my thunder. That’s pretty much exactly where I was -THE COURT: Sorry.
MR. SHEPARD: -- where I was going.
CROSS-EXAMINATION
BY MR. SHEPARD:
Q. Just to kind of expound upon that point, Ms. Milliken,
if [13]you could kind of talk about the typical way a fourth
degree assault or assault in general is handled in Warren
County.
A. So, generally, I require that -- prior to a charge being
brought in District Court, I require an investigative agency
to investigate the crime, whether it’s the Warren County
Sheriff, Western Kentucky Police, Bowling Green Police
or the Kentucky State Police.
Excuse me. I’m having -Q. That’s all right.
A. -- I had a treatment on my vocal cords the other day.
So they will investigate it and they will bring the report

45a
Appendix C
to me, pursuant to the investigation. I will review it
and determine whether or not there’s probable cause to
proceed. They generally make the determination on seeing
whether it’s an assault fourth or assault, you know, third,
second, or first.
Q. And let me stop you right there.
A. Okay.
Q. And is that typically based upon just the initial
observations of what the officer sees at that time?
A. Correct.
Q. So -A. Now, I will -- I don’t mean to interrupt you, but I will tell
you that if it’s an assault second -- excuse me -- first, second,
or third, that sometimes develops. Does that make sense?
[14]Q. Yeah, and that’s exactly what I was going for. There’s
certain things in your KRS as an assault first and assault
second that are automatically -A. Correct.
Q. Deadly weapons used?
A. Yes.
Q. Visible broken arms, things like that?

46a
Appendix C
A. Right.
Q. However -- and prior to coming today, you and I have
had discussions about -A. Yes.
Q. -- the procedures that you and the Commonwealth’s
Attorney’s Office typically follow. Is that a fair statement?
A. Absolutely.
Q. And as I understand from those discussions, if the
original on-scene assessment doesn’t appear to be as
severe as what later happened -A. Right.
Q. -- the general procedure, I think as you just described,
you would put, basically, an assault four warrant to get a
charge. And as things develop, you would remain in contact
with the Commonwealth’s Attorney’s Office should that
initial determination of the injury prove to be not as severe
as it ultimately ends up being?
A. Correct.
[15]MR. SHEPA RD: Your Honor, if I could
approach.
THE COURT: You may.

47a
Appendix C
BY MR. SHEPARD:
Q. I’m showing you -- I don’t have the throat mike. I’m
handing you a victim impact statement which has been
filed previously in this document by the victim in this case,
and I’d ask you to look about two -- two-thirds of the way
down -A. On the first page?
Q. -- on the front page -A. Okay.
Q. -- where Senator Paul begins to describe his injuries.
Do you see where I’m at?
A. Yes, about -- are you -- “about an hour later chest x-rays
confirmed,” is that what you’re -Q. Yeah.
A. Okay.
Q. If you would read there and read through about the
middle of the second page.
A. Aloud or to myself?
Q. To yourself.
A. Okay.

48a
Appendix C
[Witness complying.]
A. Okay.
MR. SHEPARD: Your Honor, if I could approach.
THE COURT: You may.
[16]A. I read to right there.
Q. Okay. Now, Ms. Milliken, the extent of those injuries
were not known to the officers on the scene or were they
known to you on November the 3rd when you made the
initial charging decision?
A. They were not.
Q. Okay. And prior to today, you’ve never even seen that
letter which I’ve just showed you. Is that a fair statement?
A. I have not.
Q. Had a victim come to you with a description of injuries
of this type, you just indicated that your procedure -- well,
in general, the victim would describe injuries you thought
were more severe, you said you would present it to the
Commonwealth’s Attorney’s Office for consideration. Had
you seen this letter and it stayed with you, would you have
presented this to the Commonwealth’s Attorney’s Office?
A. I would have.

49a
Appendix C
Q. Okay. And in fairness to both you and the Commonwealth’s
Attorney’s Office, this assault occurred November 3rd of
2017. Is that a fair statement?
A. Yes, sir.
Q. And at about the time you and the Commonwealth’s
attorneys were considering what to do, federal authorities
-- and at the outset it was Jo Lawless with the Western
District of Kentucky and then, after they were recused,
it was myself -- reached out and indicated to you that we
were going to assume jurisdiction. [17]We just needed you
to kind of hold on for a little bit while I got a few things
run down. Is that a fair statement?
A. Yes, and I contacted -- when I contacted Mr. Cohron,
who is the commonwealth attorney, that night on November
3rd, that late afternoon/early evening, he said, “This is a
United States senator. You need to contact the FBI too.
They need to know and you need to contact Jo Lawless.”
We work a lot with Jo Lawless. I tried to contact
several FBI agents, couldn’t reach them. They called me
back. I mean, we -- you know how it is on a Friday night to
contact people, but we did speak and -- yes, but everything
you said is correct.
Q. Okay. So is it fair to state neither you, nor the
Commonwealth’s Attorney’s Office was ever able to fully
make a determination if this would have remained an
assault four or gone to an assault second?

50a
Appendix C
A. No, because we -- once the federal government said
we’re taking it, we move on to our next case.
Q. So it is not a foregone conclusion by any state of the
means -- or by any state that had this stayed in Kentucky
state court that that fourth degree assault kind of plea
that you described would have been offered in this case?
A. That’s correct.
MR. SHEPARD: Thank you, Your Honor. No
further questions.
THE COURT: Thank you. Anything else?
[18]MR. BAKER: Just a couple of follow-up, please,
Your Honor.
REDIRECT EXAMINATION
BY MR. BAKER:
Q. Ms. Milliken, I think it goes without saying that it
was not and could not have been a foregone conclusion.
Everybody agrees to that.
A. Correct.
Q. And, of course, the victim impact statement that you
have just been able to read a part of is a statement from
May 21st, 2018.

51a
Appendix C
A. Several months.
Q. So it wouldn’t have been available for your consideration
at least when you had the case.
A. And I believe that night they weren’t even sure if he had
broken ribs. I mean, you know, it was -- we knew he had
maybe -- he was sore, but they didn’t know -- they didn’t
know anything.
Q. Okay. Of course, you and everyone else in the community
-- and not to diminish anything to anybody, including
Senator Paul. He did go back to work on November 13th.
You were aware of that?
A. I knew he went -- I knew he went back to work. I don’t
know the date, but I knew he went back to work, yes, sir,
yes, sir. I trust you.
[19]Q. May not have the date in your mind, but -- and at
some point later in November, he was -- this whole case
has been the subject of some fairly intense media scrutiny.
He was interviewed by Fox News and said he had not been
taking any pain medication at all. I mean, you would want
all of those facts, wouldn’t you?
A. Absolutely, and I think the grand jury would as well.
Everybody would want it, yes, sir, everybody.
Q. But in the end, the Warren District Court matter was
dismissed?

52a
Appendix C
A. Yes, sir.
Q. And here we are today?
A. Yes, sir.
MR. BAKER: Thank you.
THE WITNESS: Thank you.
THE COURT: All right. You may step down.
THE WITNESS: Thank you.
THE COURT: Thank you.
Your next witness.
MR. BAKER: Jim Skaggs, please.
THE WITNESS: Am I dismissed?
THE COURT: You are dismissed, yes.
(JIM SKAGGS, called by the defendant, sworn.)
DIRECT EXAMINATION
BY MR. BAKER:
[20]Q. State your name, please.
A. Jim Skaggs.

53a
Appendix C
Q. Mr. Skaggs, where do you live?
A. 847 Rivergreen.
Q. And how long have you lived there?
A. Since 2002 probably.
Q. Mr. Skaggs, are you one of the developers of that
Rivergreen subdivision?
A. Yes.
Q. Have you been associated with it from its beginning up
until today in some form or capacity?
A. Yes.
Q. Tell the judge about that, how that development got
started and a little bit about the Rivergreen subdivision.
A. I bought a farm at a master commissioner’s sale and
started looking for what I wanted to do with it and that
was build a dream community. And I got a couple of my
better friends to join me in the effort who were experts
in what they did, namely paving and other things, and off
we went. I did the -- most of the drawings and most of the
engineering, but people like Scotty’s did the paving.
Q. Some others helped w ith maybe some of the
infrastructure, but you had a lot of the overall design and
the planning and that sort of thing?

54a
Appendix C
A. Yes. I was considered the managing general partner.
[21]Q. Mr. Skaggs, of course, you’ve already indicated you
have an address on Rivergreen Drive.
A. Yes, sir.
Q. The reason I’ve invited you here today -- and it was an
invitation. You’re not here under a subpoena, are you?
A. No.
Q. The reason I’ve invited you here today is simply because
last fall, in about early to mid November, the Louisville
Courier-Journal reported that you characterize Rene
Boucher as -- and I think your words were “a near-perfect
neighbor.” And the judge has been provided -- the court
and the U.S. Attorney’s Office has been provided a copy
with that complete article, but I wanted to call you in here
today to ask you to expound upon that, if you will, please.
A. Well, I was speaking for myself, and to me, we had
absolutely no problems. We had one discussion over an
issue prior to his building, and I had no problems with him.
So that’s pretty good. He always paid his homeowner’s dues
and kept a neat place, spoke to me on the street.
Q. Is that -- when you say that one discussion with him,
was there an issue of whether or not a tree could or should
be cut down?
A. That’s correct, yes, sir.

55a
Appendix C
Q. What was that about?
A. The ordinance, as I drew them up originally, was that
no [22]tree larger than six-inch diameter could be -- could
not be cut without my permission.
And there was a tree in this case that was on the
Malmquist property that needed to be cut for them to
construct their home, and Mr. Boucher would rather it not
been cut. And I had to make a ruling and I ruled in favor
of cutting the tree against Rene. That was the end of it.
I thought it was the right thing to do. I did it and I stand
by what I did.
Q. Sure. Would you have occasion to see Dr. Boucher in or
around the neighborhood?
A. I saw him frequently as he exercised around the
neighborhood and as I went in and out, and he was always
friendly. And I’d roll down my window sometimes and we’d
chat, and other times we’d just throw up our hand, but I
don’t think he was ever in my home. And I was in his home
one time, and that was when my wife wanted something
that his wife had.
Q. Okay. Do you have anything else you can offer the
court with regard to this submission that -- or the prior
statement that you made about him being a good neighbor
or a near-perfect neighbor that we hadn’t touched on
already?
A. I was speaking for myself.

56a
Appendix C
Q. I understand, I understand.
A. And I still have no complaints. You know, he’s done
nothing to me. If I had broken ribs, maybe I’d feel
differently about it, but -[23]Q. Sure.
A. I have -- there was no reason to complain when there
was nothing to complain about, Counsellor.
MR. BAKER: I appreciate your willingness to
come and visit with us this morning.
THE WITNESS: Thank you.
MR. BA KER: Mr. Shepard may have some
questions for you.
CROSS-EXAMINATION
BY MR. SHEPARD:
Q. Mr. Skaggs, thank you for being here today. Did Dr.
Boucher ever complain to you about Mr. Paul or brush pile
on his property?
A. He mentioned it.
Q. He mentioned it?
A. I don’t know if it reached the level of complaint, but he
did mention it.

57a
Appendix C
Q. Never asked you to do -A. Never asked me -Q. -- do a formal write-up or confront the Pauls about it?
A. No.
Q. All right. Did you ever confront the Pauls about his
concerns?
A. I did not, I did not.
Q. Okay. As far as you know, the Pauls had no idea that
there [24]was a concern that Mr. Boucher had about their
property?
A. Well, I thought they -- yeah, I thought they had a
concern, because he kept reiterating his concern.
Q. To you?
A. To me, yes.
Q. Okay. But not to the Pauls?
A. I have no idea what he talked to the Pauls about, but
then I became noticeable and -- you know, while it wasn’t
bothering me, I live a mile away. To him it was -- apparently
it bothered him.
Q. As far as you know, he never discussed it with them?

58a
Appendix C
A. With them.
Q. With them specifically?
A. No.
Q. And did you ever discuss it with them on his behalf?
A. No.
MR. SHEPARD: Thank you very much.
THE COURT: All right. You may step down. Your
next witness.
Honor.

MR. BAKER: Father John Thomas please, Your

(FATHER JOHN THOMAS, called by the defendant,
sworn.)
DIRECT EXAMINATION
BY MR. BAKER:
Q. State your name, please.
A. My name is Father John Thomas.
[25]Q. Father, do you have a parish here in town?
A. I am pastor of Holy Spirit Catholic Church in Bowling
Green on Smallhouse.

59a
Appendix C
Q. And how long have you been the parish priest at Holy
Spirit?
A. I have been here since the second week of June 2013.
Q. Did you have a parish prior to that?
A. Before that I was in Madisonville for two years, before
that Hopkinsville for eight years.
Q. All of those are within what we here locally know as the
Diocese of Owensboro?
A. Yes, sir.
Q. And you’ve been a priest within the Diocese of
Owensboro for how long?
A. Two weeks ago I celebrated my 25th anniversary.
Q. Congratulations.
A. Thank you, sir.
Q. Do you have a priest/parishioner relationship with Rene
Boucher, Father?
A. I do, yes.
Q. Can you tell the court how it is that you got to know Dr.
Boucher and how that relationship developed.

60a
Appendix C
A. Sure. We actually met in 2000, 2000-2001 in a hospital
elevator. We were both going to see a common friend, and
because of my dress, he realized we were going to the same
place. And so we met then and encountered each other a
couple [26]of times over the years because of our common
friend, just casual encounters.
Then when I became pastor here at Holy Spirit, I have
seen Rene almost every Sunday before mass and after
mass. And I do know before I was pastor that he was
involved in a couple of different ministries in the parish.
Q. Did you strike up a friendship with him in your
discussions with him before and after mass?
A. We always speak before and after mass, yes.
Q. And how would you describe your friendship or your
relationship with him?
A. I would say that Rene is a friendly, open, kind, faithful
person.
Q. You indicated that he may have been involved in some
ministries within the church.
A. Uh-huh.
Q. Can you expound upon that for us.
A. Yes. I know that a couple of times he has visited sick,
which is a formal ministry in our parish, and also has
helped with preparation for those who are interested in

61a
Appendix C
learning more about the Catholic faith. So the process is
called RCIA or Rite of Christian Initiation for Adults. It’s
a formal program that meets once a week for a year at a
time preparing individuals who are interested in becoming
Catholic or just learning about the Catholic church.
[27]Q. So you became acquainted with him 15 or so years
ago, and then he became one of your parishioners -A. Yes.
Q. -- since you joined Holy Spirit?
A. Uh-huh.
Q. Father, we’re obviously here today in a very important
proceeding to all concerned, the Pauls, Dr. Boucher, the
community.
A. Yes.
Q. Is there anything else that you can advise or inform the
court of on the issues that are presented?
A. I would just add simply that just my observations of
Rene, especially what I think about is before mass I see
how he greets people of different cultures, different ages.
I can see people he is -- definitely he is familiar with and
knows well, but he’s also friendly to people he doesn’t know
well. I just observe that.
MR. BA KER: Mr. Shepard may have some
questions for you. You should answer his questions.

62a
Appendix C
THE WITNESS: Yes. Thank you.
MR. SHEPARD: I have no questions, Your Honor.
THE COURT: All right. You may step down,
Father. Thank you.
THE WITNESS: Thank you.
THE COURT: Mr. Baker.
[28]MR. BAKER: Your Honor, I’m sad to report
that my next witness would have been Cindy Young, but her
mother had a stroke last night so she’s not able to be here.
I don’t have any more witnesses, other than Dr. Boucher,
who would like to make a statement to the Court, please.
THE COURT: All right. Dr. Boucher, would you
take the podium, please.
THE DEFENDANT: Thank you, Your Honor,
for allowing me to make this statement. I know you’re
reviewing all of this information received from Mr.
Shepard, Mr. Baker, and the probation and parole office.
I know you have a lot of stuff to go through. I’m sorry
you’ve had to come down here from Detroit several times
to go through this. I know it’s been a lot of your time and
also for the court.
Most of all I want to apologize to Senator Paul and
his family. What I did was wrong. I’m sincerely sorry for
what I did. It’s not something that I’m proud of. I’m very

63a
Appendix C
embarrassed by it. I hope that he and his family will be
able to someday accept my apology, if possible.
I’ve always tried to treat people the way I want to be
treated. My father, you know, taught me The Golden Rule,
and I’ve tried to pass that on to my children and my family.
You know, November 3rd, I lost my temper and I did not
behave well, and I was wrong and I’m sorry for that.
[29]I never thought I would be here in a courthouse
being, you know -- you know, the center of something like
this. And, you know, my mother is 93 years old and now her
son is a convicted felon. For my children and family, I’m,
you know, sincerely sorry for this also, for Ryan, Danielle,
and my ex-wife Lisa. It’s embarrassing to me to be here,
never mind -- concerned about other things.
You know, if Senator Paul has any medical expenses
that’s been incurred, I acknowledge I’m responsible for
these so that’s -- I’ll pay them right away if there’s anything
that needs to be done in that manner.
Like I said, I’m sorry for what I did to him and I
know that he and his family are upset, and I just hope
that someday they’ll be able to forgive me. You know, I
know you’re quite aware that, yeah, I’d prefer not to go
to jail for this situation, and that’s for you to make that
determination. This has, of course, been on my mind for
seven months. You know, every hour of every day I think
about this. So it’s been stressful for me. And I truly hope
that you believe this is the only time this will happen with
me. I’ll never do it -- anything like this again.

64a
Appendix C
So I plead for the mercy of the court and forgiveness.
I’ve done my best to be honest and cooperative with
everyone. From the initial state police, the FBI, and the
Capitol Police, I’ve tried to cooperate with everyone.
[30]I ask you for leniency. I’m sorry for this whole
situation. It’s been a nightmare for me and I also injured
someone, and not just that he’s a U.S. senator, but for me
to injure anyone is not good. You know, and for that I’m
truly sorry. I’m grateful your considerations.
THE COURT: Thank you.
THE DEFENDANT: Thank you, Your Honor.
THE COURT: Thank you. Counsel, do you wish to
make a statement?
MR. BAKER: Your Honor, I’m prepared to make
a few closing remarks. That’s the extent of our proof on
sentencing. I don’t know if the Government has any proof
in rebuttal or otherwise.
THE COURT: Let’s find out. Mr. Shepard?
MR. SHEPARD: Your Honor, I could do it either
by way of proffer or I could call Special Agent Bryant
just for the purposes of admitting into evidence what I’ve
marked as Government’s Exhibits 1 through 4, which I
believe were provided to you shortly before coming on
to the bench and a copy to the defense. The documents
would just speak for themselves, and I would reference
them during my sentencing argument.

65a
Appendix C
THE COURT: The court has the documents and
without -- if there are any objections to them. Mr. Baker,
have you seen these?
[31]MR. BAKER: Judge, yes, ma’am. My objection
is twofold. They were received this morning at 8:30. I
had not seen them before that. I have made Dr. Boucher
aware of them. They’re purportedly documents from his
personnel file.
So my objection, first, is as to timeliness and, of course,
the second is that by my cursory review of this information,
it deals with some sort of incident that appears to be about
13 or 15 years old. And I just -- I just don’t think that it
has any relevance or any probative value, but I know the
court will give those documents the weight they deserve.
THE COURT: All right. The court will receive
them subject to your comments and you may address them
in your argument.
MR. SHEPARD: Thank you, Your Honor.
(Government Exhibits 1, 2, 3, and 4 admitted in
evidence.)
else?

THE COURT: All right. Do you have anything

MR. SHEPARD: I have no substantive evidence,
Your Honor, no.

66a
Appendix C
THE COURT: All right. Then let’s proceed with
closing argument.
MR. SHEPARD: Yes, ma’am.
THE COURT: Mr. Baker.
MR. BAKER: Your Honor, in preparing my closing
remarks today, I’ve obviously been through my file many,
many [32]times, conferred with my client many, many
times and have gathered up all of the evidence that we
would like to submit to you, either by way of our sentencing
memorandum or through witnesses or otherwise. I know
you’ve received all that.
THE COURT: I do want to tell you I’ve received it,
and I have reviewed the sentencing memorandum of both
the Government and the defense in detail.
MR. BAKER: Yes, ma’am.
THE COURT: And I’ve received the victim impact
statements, which I have also reviewed.
And I should ask before we go to closing, is there
anything else regarding the victims? They’re not here?
They don’t -- there’s no oral statement; right?
MR. SHEPARD: That is correct. They will not be
addressing the court in any fashion other than the victim
impact statements, which have previously been provided.

67a
Appendix C
THE COURT: And the court is considering it. Okay.
Go ahead.
MR. BAKER: Yes, ma’am. And so all that is to say
I’m always reluctant to what I call preach to the choir. I
know you have that information, and for me to just rehash
it for Your Honor, I don’t think that’s a very productive use
of the court’s time. So thank you for your consideration in
your review of those materials.
I did want to highlight some of the facts for purposes of
[33]developing a closing argument. And those facts, Judge,
would be as follows: While this case has been pending,
my client has turned 60 years old. He is a retired, board
certified medical doctor. He is the father of two grown
children, both of whom have traveled a long, long way to
be with him today. They’re in the back of the courtroom.
One came in from Massachusetts. The other came in, I
think, from Florida -- excuse me, California. And so they
are both by his side today, and I can assure you that they
wouldn’t be here if they didn’t love their father very, very
much. I’m grateful that they were able to attend. This is a
very significant day for not only them but for Dr. Boucher.
Dr. Boucher is a former Army officer. He was honorably
discharged as a major in the United States Army. He
served his country in Germany and he served his country
for eight years honorably. He is a devout member of the
Holy Spirit Catholic Church.
The founder of -- one of the founders of Rivergreen,
Mr. Skaggs, has characterized him as, quote, “a near-

68a
Appendix C
perfect neighbor.” And I’m not making light of this, but I
don’t know that my neighbors would characterize me as
near perfect. I don’t know anybody who would maybe say
that about me. I think that’s high praise for Dr. Boucher.
Mister -- excuse me -- Dr. Boucher’s criminal history,
as I’ve been able to review all of the information, consists
of [34]exactly one speeding ticket in Laurel County,
Kentucky. And it appears that after he was issued that
ticket, he promptly paid it within about three weeks and
attended state traffic school.
He bears a -- in my getting to know him, I would say
that he bears a calm, a quiet, and a friendly demeanor.
Either by letter to the court or by live testimony,
approximately 15 people in this community have attested
to his good character.
And the last and certainly the most important of
all, Your Honor, Dr. Boucher has expressed his sincere
regret and his sincere apology, not only to this court, but
to Senator and Mrs. Paul, and we hope that you’ll consider
that apology as you deliberate on your sentence.
Today and regardless of all the above, Dr. Rene Boucher
will officially become a convicted felon when you pronounce
sentence. As this court is well aware, this -- Judge, that is
an indelible mark on a person. It’s unerasable, absent some
sort of pardon, which are obviously very scarce.
A felony conviction carries with it, Judge, a very real
stigma, and maybe to some people a felony conviction

69a
Appendix C
isn’t that big of a deal, but for a person who has become
board certified in two specialties, who’s 60 years old,
who is a devout member of his church, who’s the father
of two wonderful children, and who lives in the nicest
neighborhood in Warren County, by my evaluation, a
felony conviction is a very real punishment in and of itself.
And so we’re asking that you take that as a factor [35]and
take that into account when you give your consideration
on sentencing.
So having said all that, I necessarily have to segue to
the proverbial elephant in the room, and that is the issue
of incarceration or imprisonment.
The court is well familiar with the United States
Sentencing Guidelines, far more familiar with them and
has far more experience with them than I. I only step into
the federal arena from time to time. You deal with these
daily.
The guidelines say what they say and the Government
is requesting and recommending a punishment on the low
end of the guidelines, which is 21 months. We’re asking
that you go deeper than that and here’s why:
First off, we’re asking that all of the information that
has been presented to you by way of extenuation and
mitigation -- and I know that you have that -- we’re asking
that you consider it and look favorably on the evidence that
we have been -- that we have provided the court.

70a
Appendix C
A great deal of it was delivered to you in sentencing
memoranda that were filed by the Government and on
behalf of the defendant. I know that you’ve looked at those
carefully and will consider all of it.
I don’t want to retry the issue or relive the event,
because I don’t think that it’s particularly productive,
at least at this juncture. Suffice it to say that on three
separate [36]occasions there was yard debris stacked
on the property line between the Pauls and Dr. Boucher.
Each time that debris was stacked there, Dr. Boucher
cleaned it up. And the last time he cleaned it up, he made
the very serious mistake of using gasoline and matches
and he burned himself. The next day, the pile was being
reconstructed and he lost his temper. He tackled his
neighbor. His neighbor was injured and here we are.
After the event, Judge, he cooperated fully and openly
and without hesitation or reservation with the Kentucky
State Police, and then he cooperated fully and openly and
without hesitation or reservation with the Federal Bureau
of Investigations. And then at my office he was interviewed
extensively by the Capitol Police, who were here in town,
full, fair, and complete cooperation and responses.
If anyone could be characterized as going the extra
mile or being 110 percent cooperative, that would be my
client. He just has. He has never said anything that isn’t
so. He has waived his right to a grand jury proceeding. He
has resolved this case by an information. He has tried to
facilitate the resolution of this case through an expeditious
negotiation and signing and entry of a plea agreement.

71a
Appendix C
So we’re going to ask you to accept that plea agreement
and we’re going to, in the end, ask for as much leniency as
the court can afford.
It’s important to remember that this conduct and this
[37]offense was originally charged as a state law crime in
the Warren District Court in Case Number 17-M-2909.
The assault -- the charge was assault in the fourth degree.
Now, Judge, Dr. Boucher doesn’t get to choose what
forum he gets prosecuted in. The Government gets to make
that choice. The Government gets to make that choice and
we respect that. And the Government has made that choice
in this case, and we’re not in the Warren District Court
and I understand that.
We’re not here on a violation of KRS 508.030 and I
understand that too. We are here on a violation of Title
18 U.S.C. 351(e). But my point is did Rene Boucher violate
KRS 508.030? And the answer is yes. Did Rene Boucher
violate 18 U.S.C. 351(e)? And the answer is yes. The critical
difference is that 18 U.S.C. 351(e) applies to congressmen
and KRS 508.030 applies to everybody else. We have two
congressmen in Warren County, Senator Rand Paul and
Congressman Brett Guthrie.
My suggestion to the court simply is this: Is that if
anyone else in Warren County got involved in a scuffle over
yard trash, which is what this case is about, we would be
in the Warren District Court, but not just anybody was
involved in this and not just anybody is the victim. Senator
Rand Paul is the victim and we are in federal court.

72a
Appendix C
I tried to offer some guidance and some proof to the
court via our county attorney that if this case involved
anyone other than a congressman, the resolution would be
a 30-day jail [38]sentence probated for 12 months.
We’re not asking -- we are not asking to be treated any
better than anybody else. I’d just ask that Rene Boucher
not be treated any worse than anyone else. This is a case
over -- this is a case over a property dispute and yard trash.
To be right to the point, again, Judge, we’re asking for your
mercy, your thoughtful deliberation, and your leniency.
I’m going to end by telling the court that back when I
was in college and law school, I got one of those educations
that you can’t get in a classroom. I worked for an older
fellow by the name of Walter Rauh in Louisville. And he
was a very fine carpenter and a great guy, very talented,
a true gentleman, and a perfectionist and never heard
him raise his voice, never heard him say a bad word
about anybody. It was just -- it was just one of those life
experiences that I had the benefit of having and that I’ll
always have the benefit of having.
And the reason I’m telling you about that, Judge,
is that whenever Mr. Rauh would be confronted with
a particularly challenging aspect of whatever he was
building, he would look over his shoulder and he’d say, “You
know, if this doesn’t work, we’ll just get out a big hammer,”
and he would smile. And he never had to get the hammer
out because he always measured very carefully and cut
very precisely and everything was just beautiful when he
was finished.

73a
Appendix C
But the reason I bring him up is that you have been
tasked [39]with a very challenging job today, and I’m
hopeful that you won’t reach for the big hammer. I really
am. It’s not the right tool for this job today, Judge.
If you’re going to punish Dr. Boucher, punish him, but
please, please don’t pound him into submission. Please
show him some mercy and some leniency.
In the end, Judge, if you reach for anything, please
reach for an olive branch. When this is all over, when we
all go home and this deal is done, Dr. Boucher and the
Pauls are still going to be next-door neighbors. They are.
They’re still going to live next door to each other. And Dr.
Boucher knows that the Pauls may not be ready to accept
his apology today or tomorrow or even next week, but he
has expressed to me on numerous occasions that he hopes
that they will be willing to accept it at some point when
they’re ready.
In conclusion, we’re throwing ourselves on the mercy
of the court. And, Judge, as you’re aware, justice isn’t
always synonymous with punishment just for the sake
of punishment and it isn’t always synonymous with
prison. You have several alternatives available. You’ve got
other tools in your box that you can use to fix this. They
include home confinement, community service, monetary
sanctions. Those are all available and we’re asking, again,
for your thoughtful deliberation and your leniency and your
mercy as you impose the sentence. Thank you.

74a
Appendix C
[40]THE COURT: Thank you, Counsel.
Mr. Shepard.
MR. SHEPARD: Thank you, Your Honor. If it
please the Court, just two days ago I spoke with Rand Paul,
the victim in this case, and he wanted to be here. This is
very important to him. It’s very important to his family.
I’m certain that that showed through very brightly through
both he and his wife’s letters to the court.
But more importantly, he was concerned that his
presence here would fuel the circus atmosphere that
was already throughout the national and the local media
surrounding this case, and he did not want what happened
here today to be about him, to be about who he was.
He wanted it to be about the defendant, about what the
defendant did and about what happened to him. So in that
sense, we do agree with one of the themes of the defendant’s
sentencing argument. Let’s throw out the fact that he’s a
congressman or a senator and let’s look at what happened
to him.
Your Honor, you’ve been in front of numerous criminal
cases and you’re also well aware of the Department’s
policies as it relates to the guidelines. And there’s cases
where we argue for a guideline sentence because it is the
policy of the Department of Justice to argue for guideline
sentences and then there’s cases where we argue for a
guideline sentence because the guidelines get it right,
and this is absolutely one of those [41]cases where the
guidelines get it right.

75a
Appendix C
If this were a simple assault, under the guideline
we would be starting at a 14. We’d lose two points for
acceptance. We would be at a 12 and we would be in Zone B
and, essentially, in a prescribed sentence, which is exactly
what the defendant is asking for, noncustodial, some of
those more flexible options available to the court. The
guidelines aren’t mandatory anymore and they haven’t
been since 2005.
But what’s important about that conclusion is it would
completely ignore the full extent of the harm caused. And
when you look at the harm caused, at least through the
prism of the guidelines, this is a lot more serious, and this
is the same guideline that applies regardless if we’re on
assault on a special maritime jurisdiction or if we’re on
assault on a protected person.
And what that means is jurisdiction is the only reason
that he’s a congressman is important. If this assault would
have happened anywhere on federal property, this would be
the same guideline based upon what was done, and that’s
the disparity that the Sixth Circuit in Cincinnati says is
important, not the disparity between here and the District
Court in Warren County, Kentucky. And then for the other
reasons that I’ve put forth in my brief and I think that was
acknowledged by Ms. Milliken, I don’t believe this would
have been only in the District Court. I think this would
have been a felony for all the reasons I set [42]forth in my
sentencing memo, and the advisory range under state law
is five to ten years.

76a
Appendix C
W hen you look at what happened here, it was
absolutely deplorable. This was not a bar fight. This was
not an argument that got out of hand, and I disagree that
this was just him losing his temper. This was a vicious and
unprovoked assault.
This doesn’t appear to be the first time that Mr.
Boucher has had issues with his temper or his anger.
We’ve provided to the court there were instances that
were documented to his employer, the letter from David
McElvain, an RN, talking about impatience is the word
that he used.
There’s a later letter from a patient about having
the mask placed on her very hard to the point of she was
choking by Dr. Boucher. But most importantly is the letter
from 5-18 of 2005, where a nurse describes Dr. Boucher
getting so mad that he cursed in front of the patient,
“Fucking piece of shit.” That was the quote directly from
the letter.
Later on, apparently on the same day, he’s not getting
in as quickly as he wants and he’s shouting again, “Let’s
go.” Most importantly at the conclusion of the letter, the
nurse states, “Please keep my name out of this because I
don’t want my life to be a living hell for reporting it.” And
then she at her workplace is afraid of Dr. Boucher.
Two days later Dr. Boucher is put on notice from his
employer that there had been incidents from patients,
from [43]staff, and from nurses and that he had 30 days to
change his behavior or he would be terminated.

77a
Appendix C
If we look at the instant instance, 13 years later we’ve
got similar problems. It’s escalating behavior and maybe
the scariest part, to the extent that there was a dispute,
the dispute only appears to have existed in the doctor’s
mind, Dr. Boucher’s mind.
The Pauls hadn’t had a conversation with Dr. Boucher
in about ten years. No one has provided any proof, not
Mr. Skaggs, not throughout the letter, that Mr. Boucher
ever approached the Pauls to say, “Hey, quit stacking
brush on the property line,” no one from the homeowner’s
association. The Pauls had no idea. And based upon the
letter, it appears he trespassed multiple times onto their
property.
It ultimately comes to a head on November 3rd, when
while out enjoying his property, mowing his lawn, with
no opportunity to defend himself, he got struck in the
back. He’s assaulted by Dr. Boucher. It was an assault in
the back from about 60 yards down a hill that has a -- it’s
pretty steep. My agent estimated maybe even as much as
45 degrees. That’s a long time to cool off and decide maybe
I shouldn’t do this.
It’s unclear where Dr. Boucher was. I have both Exhibits
2 and 3 to the defendant’s sentencing memorandum. Dr.
Boucher’s property, Senator Paul’s property, and that X
is about where the brush pile was. There’s kind of a lake
over here, and that is [44]the sightline that Senator Paul
was looking as described in his letter.
What that means is the attack had to have come from
some sort of a direction like that, if he was on his property

78a
Appendix C
or if he saw it from the road. Who knows? But to come at
his back, would have had to come from somewhere around
there. Didn’t come this way or else he would have seen it.
He had to cover a lot of ground. He got up a big head
of steam and he plowed into him. That is not what civilized,
educated members of our society do to one another.
And the harm caused was severe, the broken ribs,
the free-floating nature of some of them, the increased
pain, the continued pain from things like coughs, hiccups
buckled him over sometimes. The paranoia now that both
he and his wife -- or apprehension is probably a better word
-- face whenever they even go out in their yard, because
why would you not have such an apprehension minding his
own business in his yard? He had a terrible assault already
happen once. These are injuries that have possibilities, as
described in the letters, of future complications.
This isn’t about who the victim is. It’s about what
was done to him, the physical harm, the being placed
in continued fear to even be in his own backyard, the
apprehension of every time he sees Dr. Boucher in the
neighborhood what is going to happen. Subsequent
cooperation, saying I’m sorry, that doesn’t [45]erase that.
One of the things that Mr. Baker said is probably the
most important thing that sums up this entire case and
why a prison sentence of 21 months is appropriate. At the
very end, the defense asked you to extend an olive branch.
Keep in mind Dr. Boucher never gave that olive branch
to Senator Paul. He doesn’t know what happened, what

79a
Appendix C
possessed him to do this, but never once was he approached
by the doctor about this being a problem and just asked
him to move it.
What instead he got was a seven-month injury that he
doesn’t know when it’s going to recur. He still has scarring
on his lungs, as detailed in his letters. That’s not a slap on
the wrist. That’s not an I’m sorry will wipe this all away.
That’s something that demands just punishment, and, Your
Honor, we ask you to impose that today. Thank you.
THE COURT: Thank you.
All right. Doctor, would you please approach the
podium with your attorney.
Today, of course, is the day that this case comes to a
conclusion with the sentence. I want to state first that the
court accepts the Rule 11, and the court has to fashion a
sentence that is sufficient but not greater than necessary
to comply with the purposes of our laws.
We know what the sentencing guidelines are, and
there’s nothing that I’ve seen that shows under the
guideline commentary [46]a departure.
The court, however, notes that there can be a variance.
If the court considers not only the guidelines, which are
advisory to it, but also sentencing factors -- we call them
3553(a) factors. I think your attorney has gone over them
with you; is that correct?

80a
Appendix C
THE DEFENDANT: Yes, ma’am.
THE COURT: All right. So the court looks at a
number of factors, and it starts out with the nature of the
offense. And as has been indicated here, you’re charged
with assaulting a member of Congress and certainly this
law has its purpose. I believe the Government mentioned
in its sentencing memo that it’s really a constitutional
reference because it enables Congress to act without fear
of repercussion, physical repercussions to them and they
then can fulfill their constitutional duties.
The interesting thing in this case is I do not believe
and I don’t think there’s any evidence -- and I was happy to
hear the Government say that -- look at you, look at this as
a dispute between neighbors and not because the senator
is a senator. In other words, that status doesn’t really
make a difference in this case, because the court does not
believe that you did this because of Senator Paul’s political
positions or political work.
I know and I mentioned this so that you are well aware
that the senator believes it is -- he thinks it’s political
because [47]there seems to be no other reason for it. And
the court looked at that to see is there some other reason
for this? And though it’s hard to explain, in reviewing this,
I see it strictly as a dispute between neighbors. And it
appears notably that the senator didn’t see this dispute, but
you, in fact, saw the dispute or had in your mind a dispute.
You’ve been, what, neighbors since you moved in in 2000?
THE DEFENDANT: Yes.

81a
Appendix C
THE COURT: And so the court looked at, what
happened here? Why would you do this? And I don’t know.
In your discussion, you don’t seem to know why you did
this, except that you lost your temper.
The court noted the references made today in the
exhibits offered by the Government about your demeanor
in 2005. I’m not familiar with those incidents. I think
this is so old and there’s all kinds of things -- this isn’t a
malpractice case, but it was a demeanor case. And there
was reference made to the fact by the Government that
maybe your temper has escalated to this point, but I
find it very interesting that was in 2005 and this is 2018.
So if there’s an escalation, there’s certainly no note of
an escalation by anybody. Therefore, I really give no
consideration to those letters or reports as it relates only
to this particular matter.
So the court looks at what happened here and,
apparently, sir, you’ve had some trouble. You say you
trimmed the trees in [48]the summer of 2017, even though
they were doctor -- they were Senator Paul’s trees, but you
took care of those because they were on the property line.
And then this -- the series of events started in September
where you -- the senator placed a substantial amount
of limbs -- I think you indicated it was something like
ten feet long and five feet high. I don’t know if that’s an
exaggeration or not, but there were limbs there and that
you in fact got a dumpster -- I think maybe the second time
you got the dumpster, and you removed them when there
were more piles on October 10th of 2017. Then on October
13th or 14th, again, there was a pile of debris stacked and
you again hauled off this debris.

82a
Appendix C
It’s interesting to me because you did not speak with
the senator, which would have been something maybe you
should have tried to do. We all recognize that, but the court
also recognizes that actions speak louder than words, and
I think one would know by your removal that you did not
like those -- that debris in your sightline.
Again, on October 20th, it was reconstructed and what
you did is -- I think then you burned the pile and you, in
fact, caused yourself to suffer second degree burns on your
arms, neck, and face as a result of that.
So this is the background, the building up to, I think,
the temper of November the 3rd, when you saw in your
eye’s view the senator again putting branches in that area
and then the [49]incident happened.
It’s an unfortunate incident. It should not have
happened. There were other ways to resolve it, but I do
think it gives a buildup in your mind’s view -- in your mind
this is what you’re seeing -- though the senator himself did
not see these actions as words and did not see this attack
coming.
And as far as the attack, he was certainly a -- what do
I want to say? He was an innocent victim. He didn’t know
that you were going to do this, but it happened. So that’s
the nature of the offense that we’re looking at here.
And then we look at your history and characteristics,
and what we have is we have a 60-year-old medical doctor
-- interesting that you and the senator are both medical

83a
Appendix C
doctors, and we would think we’d have a more refined
relationship. But as a judge, I’ve seen many neighborhood
disputes and background doesn’t seem to make a
difference, to be honest.
THE DEFENDANT: Yes.
THE COURT: But you are an educated person.
You apparently have had no criminal history whatsoever.
There’s a reference to a driving matter today, but no
criminal history. You’ve gone by 60 years of life, of a
good life from the letters that the court has reviewed,
from the witnesses who testified, from your pastor who
testified, from a person who lives in your neighborhood
who developed your neighborhood who testified.
You have this excellent background. You’ve been an
Army -- [50]in the Army. You’ve served your country for
eight years. You’ve raised two children who are doing
very well. You’ve participated in the community in your
practice and in your church, and the court considers all of
these factors.
And I look at some of the purposes of sentencing of,
you know, what can we do? What do we have to do? And
we looked at the seriousness of the crime. We need to
promote respect -- and I think that’s important -- and we
need to deter you and others from committing such crimes.
Certainly I know -- I firmly believe you will not get yourself
involved in anything like this. And we have to protect the
public, protect in this case your neighbor from situations
that might endanger them.

84a
Appendix C
I think, looking at everything that happened here, this
appears to be abhorrent behavior. And I use that term in
the general English language, not as it is reflected in the
sentencing guidelines, but just this is something that is
abhorrent behavior for you. It’s an isolated incident. It’s a
first incident. It’s a first-time action. There’s a spontaneity
about when it happened. I don’t believe you planned to
attack the senator.
I think the fact that you yourself suffered from a
broken neck, that you would not intentionally engage in
a fight that would harm yourself. It’s very unlikely that
it will occur again. So I consider this in your general
characteristics.
So the court has several sentences and options, as your
[51]attorney has indicated, that I can consider, and they
go anywhere from probation to the 21 months or above, if
the court so chose.
I try to have a sentence that would reflect all of the
items we’ve talked about and also consider the seriousness,
because the sentence should not in any way diminish the
seriousness of the harm that was caused to the senator.
I read with great interest and really sorrow the
statements of Mrs. Paul about how she would like to go out
in her backyard but now she feels somewhat threatened
and apprehensive. And though I don’t believe you’d do
anything, this is now in her eye’s view, just as what was in
your eye’s view when you committed it.

85a
Appendix C
So it’s really a very sad situation, and the court -- there
are other options. Home confinement. Well, that doesn’t
seem to be a reasonable one in this case, because that
would put you right where -- right behind the senator all
the time with no relief.
So considering the guidelines and considering these
3553(a) factors that we have gone over, it is the judgment
of the court that you be committed to the custody of
the Bureau of Prisons for a term of 30 days. I think it’s
essential for deterrence particularly and for punishment,
plain punishment, that you have some time in the Bureau
of Prisons on Count 1 of the information.
[52]Upon release from imprisonment, you’ll be placed
on supervised release for a term of one year. You’ll abide by
the standard conditions of supervised release as adopted
by the court, as well as the special conditions which have
been provided to you and counsel.
These are written out and given to you. I don’t think I
need to go over them. Counsel, would you agree with that?
MR. BAKER: I’d agree. Thank you.
THE COURT: Okay. I do have the special condition
and that is that there be no intentional contact with the
victim. And I put that word intentional in there specifically
because I know you are neighbors, and you may run into
each other in the store. You may run into each other
walking in the neighborhood. You are to avoid, when at all
possible, any contact whatsoever with the Pauls. Do you
understand that?

86a
Appendix C
THE DEFENDANT: Yes, Your Honor.
THE COURT: Okay. I also am going to give you
community service, because I considered greatly should
you sit in prison for a year or two years? That doesn’t seem
to serve any purpose, but you are a highly educated man.
From everything I’ve read in the letters, you communicate
well with people when you communicate with words, and
I think that you should give back to the community. And
I’m, therefore, going to order that in your one year you
serve or give 100 hours of community service. So that will
be done over the period of a year of [53]supervised release.
And I have talked to probation and they will arrange
community service. I’m thinking of something -- and I’m
not saying this is it, but I’m thinking of something. You
know, if there’s nursing homes, even visiting with people,
this could be something where you could help others. And
I think that with this help of others, this would be, I would
hope, also a sentence which would satisfy the senator in
that you would be giving back, trying to compensate for
the actions.
I’m also going to include in those conditions certain
financial restrictions, because when we get to the fine
-- and we have to talk about the restitution yet -- so that
these financial requirements mean that basically you’re
not going to open up any new lines of credit, unless you’re
in line with paying according to the schedule that you will
be given by probation, which will be approved by the court.
So the court then is ordering a fine, and I’m ordering
a fine in the amount of $10,000. Any interest requirement

87a
Appendix C
on the fine is waived. There’s a special assessment of $100,
which is due immediately.
I’d like to talk about the restitution. Have you two
discussed this?
MR. BAKER: Yes, ma’am.
MR. SHEPARD: Yes, Your Honor. I indicated to
Mr. Baker, even as recently as about ten minutes before
we came [54]into -- before Your Honor took the bench, I
made repeated requests for an amount documentation from
the victim. I have yet to receive anything. I reached out
again to his designated representative. He had also made
the request and he indicated that at this time they’re not
requesting restitution in the matter.
THE COURT: They are not?
MR. SHEPARD: That is correct, Your Honor.
THE COURT: I understand that there is some
litigation probably to come, because I do have a letter from
an attorney, and there’s civil litigation. So that is probably
then left up to -- best left up to the civil litigation, and the
court will not order any restitution in this case.
So, again, just to repeat, any of the financial sanctions
that the court has indicated will be paid according to a
schedule or forthwith, depending.
Because I believe there’s a low risk of substance
abuse -- I don’t know of any alcohol or drug problems that

88a
Appendix C
you have -- the court is not going to order that standard
condition.
So having considered the guidelines and your criminal
history, the 3553 factors, the court is sentencing you as
stated to 30 days to the Bureau of Prisons, one year of
supervised release, 100 hours of community service, and
the special conditions that we’ve talked about.
I believe in your Rule 11 you have waived your right
to [55]appeal, and there is a form for you to sign, again,
acknowledging that you have waived your right to appeal.
Okay. That’s signed.
THE DEFENDANT: Yes, Your Honor.
MR. BAKER: Yes, ma’am.
THE COURT: Thank you. Are there any objections
to the sentence as pronounced or the special conditions,
which will be incorporated in a judgment, which have not
already been raised?
MR. BAKER: No, ma’am.
MR. SHEPARD: Your Honor, I don’t require
any further statement as to why you did what you did.
I would just, for purposes of the record and for people
above my head who evaluate these things, would just
note the Government does object, that it feels that a
20-month variance under these facts is not reasonable as
the guidelines and the case law states.

89a
Appendix C
THE COURT: Okay. That is noted for the record.
Your argument is noted, obviously, for the record. So it will
be there for purposes that you wish.
Is there anything else? Let me ask, first of all,
Probation, did I forget anything I should include here?
PROBATION OFFICER: No, Your Honor.
THE COURT: Okay. Defendant?
MR. BAKER: One housekeeping thing, Judge. It’s
my -- it’s going to be my prediction that Mr. Shepard will
probably [56]ask the court that Dr. Boucher immediately
be taken into custody. I think there’s some discretion there.
I don’t know if you want him to be taken into custody
today or give him a report by date. I don’t know what your
practice is in this matter.
THE COURT: Are you asking for that?
MR. SHEPARD: Your Honor, the statute obviously
shows that the presumption is that he be taken into custody
upon given a sentence of imprisonment. The court is
certainly able to find under 3142 that he has rebutted this
presumption, and the Government just would stand on
the presumption and ask that he do be taken into custody.
THE COURT: All right. The court has checked with
probation/pretrial as to how he has -- how the doctor has
been with the terms that he was on on his bond, and there’s
been no violations that I am aware of. He’s a member of the

90a
Appendix C
community. There would be no reason for him to abscond.
I don’t believe he’s a danger at all to anyone. Therefore,
the court will allow you to report when notified by the
Bureau of Prisons.
MR. BAKER: Yes, ma’am, yes, ma’am. Thank you.
THE COURT: Anything else?
MR. BAKER: No, ma’am.
THE DEFENDANT: Thank you, Your Honor.
MR. SHEPARD: Nothing from the Government,
Your Honor.
THE COURT: All right. Thank you very much.
[57]Wait a minute. I have one other thing I want to
say. I like to say this to first-time offenders, Doctor, even
though -- even though you’re highly educated and you’re
older than most of our first-time offenders, I want to say
that I know this is a heavy burden on you as a defendant to
be a convicted felon, but I hope that after you serve your
time and after you complete your supervised release that
you can -- that you can forgive yourself and go on with your
life. Okay? I hope ultimately with you that the Pauls can
forgive you, but I think you have to -- you have to move on
yourself. Thank you.
THE DEFENDANT: Thank you, Your Honor.
(Proceedings concluded at 11:40 a.m.)

